U.S. Department of tranSportation
 Office Of inspectOr General
    SemiannUal report to CongreSS

      OctOber 1, 2011 – March 31, 2012
                                                           Table of Contents

From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii

Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           In Focus: Enhancing Oversight of Staffing and Training

              at FAA’s Critical Facilities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15

           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17

           In Focus: Identifying and Correcting Vehicle Safety Defects  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35

           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

           Aquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

           Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49


Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51

Work Planned and in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55

           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                             55

           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                              61

           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                            65

           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                       67

           Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                           71

           Departmentwide  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .          75


Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77

           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77

           Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79

           Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79

           OIG Reports with Recommendations that Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 80

           OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  .  .  .  .  . 81

           OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .  .  .  . 82

           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83

           Office of Inspector General Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 84

           Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 98

           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 101

           Statistical Outcomes .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 101

           Profile of All Pending Investigations by Case Type, as of March 31, 2012  .  .  .  .  .  .  . 103


Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 105

Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 109

                                     From the Inspector General

I am pleased to present the Department of Transportation (DOT), Office of Inspector
General’s Semiannual Report to Congress for the first half of fiscal year 2012. Our audit
and investigative work supports the Department’s strategic goals of safety, livable
communities, economic competiveness, environmental sustainability, state of good
repair, and organizational excellence. Over the past 6 months, we issued 83 reports
with a total of 234 recommendations, including financial recommendations totaling over
$1.4 billion. Our investigative work resulted in 86 indictments, 33 convictions, and a total
of more than $19 million in fines, restitutions, and recoveries.

Our aviation work continued to identify opportunities to improve safety and achieve
savings in large programs. For example, the Federal Aviation Administration (FAA)
has not yet implemented key provisions of the Airline Safety Act for increasing pilot
proficiency, ensuring sufficient safety inspectors, and identifying the greatest safety
risks. Further, our investigations exposed fraudulent activity with the potential to
also compromise the integrity of our Nation’s aviation system, including the use
of unapproved parts in aircraft repairs, illegal charter operations, bogus safety
inspections, and the illegal transportation of hazardous materials. Cost, schedule,
and performance risks in implementing Next Generation Air Transportation System
(NextGen) transformational programs also continue to be a concern. Notably, ongoing
problems with the En Route Automation Modernization program have caused significant
delays that impact the cost and pace of NextGen.

Our special programs work highlighted significant deficiencies in the Pipeline and
Hazardous Materials Safety Administration’s Hazardous Materials Emergency
Preparedness Grant Program. Weaknesses in grant allocation, grantee coordination,
and program oversight have resulted in more than $1 million in improperly distributed
grant funds—funds that could have been fully used or optimized to ensure local
emergency personnel are prepared to quickly and effectively respond to hazardous
materials incidents.

Our highway and transit work also identified areas where DOT could improve safety
and achieve significant cost savings. Our audits determined that the National Highway
Traffic Safety Administration needed to enhance its processes for identifying and
addressing vehicle safety defects. We also reported on the challenges the Federal
Transit Authority would likely face in establishing national rail transit safety standards
if Congress expands the Agency’s safety oversight role. Our investigations uncovered
numerous fraud schemes with safety as well as financial implications. Corruption
among aviation and motor carrier safety inspectors, improperly issued commercial
drivers’ licenses, and police officers tampering with traffic enforcement records
degrade the integrity of the Department’s safety programs, while embezzlement,
substandard materials, price fixing, and disadvantaged business enterprise fraud
divert millions of Federal dollars from legitimate firms, degrade the quality of taxpayers’
investments, and increase the costs of infrastructure projects.


                       Semiannual Report to Congress    •   iii
We continued to focus our rail work on the Federal Railroad Administration’s efforts
to meet its responsibilities under the Passenger Rail Investment and Improvement
Act, improve and expand intercity passenger rail, and ensure that the Government’s
investments in the $10 billion grant program for high-speed intercity passenger rail
achieve their intended benefits. We also continued our oversight of Amtrak’s operational
reforms and financial performance, as well as DOT’s management of the Highway Trust
Fund’s solvency.

Our audits of the Department’s information technology portfolio—one of the largest
among Federal civilian agencies—continue to identify significant vulnerabilities in the
area of cyber security. We also recommended ways in which the Department can
improve the accuracy of its quarterly reporting on improper payments, and reported
that agencies can improve their use of single audit findings to protect DOT’s grant
funding.

Finally, we continued to pursue opportunities to ensure accountability, efficiency, and
transparency over DOT’s acquisitions and procurements, including those funded under
the American Recovery and Reinvestment Act. Strategically managing acquisitions
is critical to maximize the Department’s limited resources and achieve better mission
results. Yet doing so remains a top management challenge for the Department.

Our work continues to reflect our commitment to provide relevant and timely
information to Congress, the Department, and the public with in-depth analyses of
important transportation issues. I commend and thank our hard-working staff for their
outstanding efforts and dedication to our critical mission. I would also like to thank
Secretary LaHood for his strong leadership in these challenging times. I look forward
to our continuing work with the Secretary, his team, and the modal administrators to
provide Americans with a safe transportation system that meets the national objectives
of general welfare, economic growth and stability, and security.




Calvin L. Scovel III




                         From the Inspector General   •   iv
                                                 Audits and Investigations





                                          Aviation and Special Programs





Audits                                            recommendations made by a government-
                                                  industry task force could discourage industry
                                                  investment in NextGen. In addition, ongoing
October 5, 2011
                                                  problems with implementing the En Route
Federal Aviation Administration’s                 Automation Modernization (ERAM) program
Progress and Challenges in Developing             have caused significant delays that impact the
                                                  cost and pace of NextGen; and total costs,
and Transitioning to the Next                     schedules, and benefits remain uncertain
Generation Air Transportation System              for NextGen’s transformational programs.
Testimony before the House Subcommittee           The Inspector General highlighted three
on Aviation                                       management areas that FAA must focus on now
                                                  to advance NextGen and protect taxpayers’
The Inspector General testified on the Federal    interests: (1) NextGen budget priorities, detailed
Aviation Administration’s (FAA) progress          milestones, and performance goals and metrics;
and several challenges in developing and          (2) problems with ERAM; and (3) an integrated
transitioning to the Next Generation Air          master schedule for all NextGen programs.
Transportation System (NextGen). The Inspector    OIG’s Office of Acquisition and Procurement
General noted that delays in addressing key       provided support on the contract-related
                                                  sections of the testimony.




                              Semiannual Report to Congress   •   1
December 20, 2011                                    January 12, 2012
New Approaches Are Needed To                         Enhanced Oversight of Staffing and
Strengthen FAA Oversight of Air                      Training at FAA’s Critical Facilities Is
Carrier Training Programs and Pilot                  Needed To Maintain Continuity of
Performance                                          Operations
Requested by the Senate Committee on                 Requested by the Chairman and Ranking
Commerce, Science, and Transportation;               Member of the Appropriations Subcommittee
the House Committee on Transportation and            on Transportation, Housing and Urban
Infrastructure; and Representatives Louise           Development, and Related Agencies
Slaughter and Brian Higgins
                                                     Based on our assessment of 21 critical air traf-
We reported that FAA’s oversight of air carriers’    fic control facilities, we reported that insufficient
pilot training and proficiency programs lacks        oversight of staffing and training at FAA’s critical
the rigor needed to identify and track poor          facilities could disrupt continuity of air traffic
performing pilots and address potential              operations. Critical facilities face a potential
program risks. FAA has not sufficiently trained      shortage of certified professional controllers,
inspectors on how to evaluate air carriers’ basic    as they have higher rates of retirement eligibility,
training assessments. In addition, FAA does not      controllers-in-training, and trainee attrition
provide sufficient oversight of check airmen—        than other facilities nationwide. In addition, as
who perform the majority of proficiency checks       FAA begins deploying NextGen technologies,
on air carrier pilots. We also found that while      critical facilities will require even more training
FAA maintains extensive pilot information that       resources for both veteran and new controllers.
air carriers can use to evaluate the competence      We made five recommendations to assist FAA
and qualifications of pilots, its current request    in ensuring the continuity of operations at its
process hinders air carriers’ ability to easily      most critical facilities, and FAA concurred or
obtain all relevant data. We made seven              partially concurred with all five. Based on FAA’s
recommendations to FAA to improve its                response, we are closing three recommenda-
oversight. FAA concurred or partially concurred      tions, and consider the remaining two resolved
with each of our recommendations. However,           but open pending completion of planned
FAA’s responses did not meet the intent of four      actions.
of our recommendations, and we requested
additional information before resolving them.
In particular, we requested further justification
regarding FAA’s response on the adequacy of
inspector oversight of check airmen.




                                 Aviation and Special Programs   •   2
January 12, 2012                                    response, we consider two closed and seven
                                                    addressed but open pending completion
PHMSA’s Inadequate Management
                                                    of planned actions. We are requesting that
and Oversight of Hazardous Materials                PHMSA reconsider its position on our remaining
Emergency Preparedness Grants                       recommendation—to develop and implement
                                                    an updated and flexible process to allocate and
Limited the Program’s Effectiveness                 reallocate grant funds.
Requested by the former Chairman of the
House Committee on Transportation and               February 10, 2012
Infrastructure
                                                    ARRA Job Data Reporting for FAA
Over the last decade, nearly 165,000 incidents      Programs—Lessons Learned for
involving hazardous materials occurred in           Improving Accuracy and Transparency
the United States, resulting in more than
2,800 injuries, several fatalities, and about
                                                    for Future Job Reporting
$640 million in damages. To help ensure local       Requested by the Chairman of the House
emergency personnel are prepared to quickly         Committee on Transportation and Infrastructure
and effectively respond to hazardous materials
incidents, the Pipeline and Hazardous Materials     We reported that FAA met the requirement of
Safety Administration (PHMSA) issues funding        the American Recovery and Reinvestment Act
grants for emergency response planning and          of 2009 (ARRA) to provide reports on job data,
training activities through the Hazardous           and noted improvements in overall reporting
Materials Emergency Preparedness Grant              of job data over time. However, we identified
Program. We reported on several program             a number of areas for improvement that can
weaknesses that resulted in waste—including         serve as lessons learned for the ARRA reports
an outdated methodology for allocating              still remaining and for future job creation efforts.
grant funds, poor coordination with grantees,       We also found that while it is clear that ARRA-
and ineffective oversight to ensure funds           funded FAA projects have created or sustained
are maximized and used appropriately. We            jobs, the full extent of this accomplishment is
identified more than $1 million in improperly       unclear because of errors and inconsistencies in
distributed grant funds. Further, because           the collection and reporting of job information.
PHMSA does not require grantees to submit           Finally, we identified areas where DOT can
supporting documentation as part of the             clarify aspects of its departmentwide job data
reimbursement process, it cannot ensure             reports to better meet ARRA’s transparency
that it is reimbursing grantees for only eligible   and accountability requirements. We made five
expenditures. We made 10 recommendations            recommendations to FAA and DOT to improve
to PHMSA to improve its management and              job reporting and to increase data accuracy and
oversight of the program. Based on PHMSA’s          transparency. FAA’s planned actions for two



                                 Semiannual Report to Congress   •   3
recommendations and DOT’s planned actions            Investigations
for its single recommendation are responsive,
and we consider these recommendations
                                                     October 3, 2011
resolved but open pending completion of
the planned actions. For the remaining two           Pilot Pleads Guilty to False Statement
recommendations, we are requesting that
FAA reconsider its position regarding further
                                                     After Conducting an Illegal Charter
evaluation of submitted job data.                    Flight to North Carolina
March 20, 2012                                       In District Court, Raleigh, NC, Jose C. Joga, an
                                                     FAA-licensed airline transport pilot, pleaded guilty
Progress and Challenges in                           to one count of false statements in connection
Responding to Key Provisions                         with his role in an unlicensed charter airline
                                                     operation in south Florida.
of the Airline Safety Act
Testimony before the Senate Subcommittee
                                                     Joga was the captain and pilot of a Caribair,
on Aviation Operations, Safety, and Security
                                                     Inc.-chartered commercial flight booked through
                                                     an aircraft charter broker to fly a family from the
The Inspector General testified on FAA’s
                                                     Dominican Republic to New York. On January 3,
progress in responding to provisions of the
                                                     2009, Joga departed Santo Domingo with five
2010 Airline Safety and FAA Extension Act.
                                                     passengers on board and instructed them that
The Inspector General noted that while FAA
                                                     upon arriving in Wilmington, NC, they should
has made important progress related to key
                                                     falsely tell U.S. Customs and Border Protection
Act requirements—such as strengthening pilot
                                                     (CBP) authorities that they were friends of the
rest requirements and advancing programs for
                                                     plane’s owner—not that they had paid for the
managing safety risks—it has yet to implement
                                                     flight. Approximately 30 minutes into the flight,
Act provisions related to pilot training,
                                                     Joga threatened to return to Santo Domingo if
professional development, and qualifications,
                                                     the passengers did not do as he had instructed.
due in large part to industry concerns.
The Inspector General also discussed the
                                                     During a forced landing in Wilmington, the aircraft
challenges FAA faces in establishing a pilot
                                                     impacted the runway with the landing gear
records database for carriers to use when
                                                     retracted. While the aircraft sustained damage,
screening applicants. Finally, the Inspector
                                                     there were no serious injuries. A post-accident
General pointed out that FAA needs to assist
                                                     investigation conducted by FAA determined that
smaller carriers in developing and managing
                                                     neither Caribair nor the flight was certificated
the safety programs called for in the Act to fully
                                                     under Title 14, Code of Federal Regulations,
realize the benefits of increased safety reporting
                                                     Part 135 (Charter Operations). As part of the
and trend analyses.
                                                     investigation, FAA interviewed Joga, who stated



                                 Aviation and Special Programs   •   4
that the flight was conducted under Part 91, and        indicted on conspiracy, trafficking in counterfeit
that all five passengers on the aircraft were friends   goods, and mail fraud. McCloskey pleaded guilty
of the owner.                                           in November 2010 for her role in the conspiracy.
                                                        Wren died pending trial.
This investigation was conducted jointly with the
Department of Homeland Security, Immigration            This investigation is being conducted jointly
and Customs Enforcement (ICE), with technical           with ICE, Naval Criminal Investigative Service,
assistance from FAA.                                    U.S. Postal Inspection Service, Internal Revenue
                                                        Service (IRS) Criminal Investigations (CI), and
October 25, 2011                                        the General Services Administration Office of
Florida Woman Sentenced for                             Inspector General.

Trafficking Counterfeit High Tech                       October 27, 2011
Devices                                                 FAA Employee Pleads Guilty to
Stephanie McCloskey was sentenced in U.S.               Accepting Bribes
District Court, Washington, DC, for her role in
a scheme in which she and others imported               In U.S. District Court, Camden, NJ, Harrington
counterfeit integrated circuits from China and          Bishop—a former FAA Aviation Safety Inspector
Hong Kong and sold hundreds of thousands                assigned to the Teterboro Flight Standards District
of them to the military and transportation              Office in Saddle Brook, NJ—pleaded guilty to one
contractors. McCloskey, former Administrative           criminal count of accepting illegal gratuities as a
Manager of VisionTech Components, located               public official.
in Clearwater, FL, was sentenced to 38 months
incarceration and 3 years of supervised release,        Bishop admitted to accepting tens of thousands
and ordered to forfeit $166,141.23, which               of dollars for hundreds of unauthorized pilot
represents the income she earned at VisionTech.         check rides he personally performed between
Additionally, a restitution order that could be as      May 2004 and February 2011. Bishop spent
much as $578,062.23 will follow within 90 days.         weekends, holidays, and other days of approved
                                                        leave to conduct flight checks, including private
In September 2010, McCloskey and Shannon L.             pilot and airline pilot certificate tests. In exchange
Wren, owner of VisionTech Components, were              for these check flights, he routinely accepted
arrested on charges in connection with the sale         $300 tips from the pilots, fully aware that he was
of counterfeit integrated circuits. On the day of       not allowed to accept payment from pilots in
their arrest, search warrants were executed on          exchange for performing official duties. Bishop
the business and their residences that resulted in      admitted that nearly all the check flights resulted
the seizure of proceeds from their criminal activity.   in the pilot passing the tests.
Following their arrest, McCloskey and Wren were



                                   Semiannual Report to Congress     •   5
On October 21, 2011, Bishop retired from              fine, he was ordered to complete 120 hours
Federal service after being served with a Notice      of community service and pay a $100 special
of Proposed Removal in connection with the            assessment. FAA assisted in this investigation.
investigation.
                                                      November 22, 2011
November 4, 2011
                                                      Co-Founder of a Luxury Charter Jet
Former Commercial Airline Pilot                       Company Sentenced
Sentenced for Operating a Common
                                                      Andre Budhan—cofounder and manager of
Carrier Under the Influence of Alcohol
	
                                                      Platinum Jet Management (PJM), a luxury
Aaron J. Cope of Norfolk, VA, was sentenced in        charter jet company—was sentenced in U.S.
U.S. District Court, Denver, CO, for operating a      District Court, District of Newark, NJ, as a result
common carrier under the influence of alcohol.        of his conviction for illegally operating an air
On December 8, 2009, Cope copiloted a United          charter service.
Express flight from Austin, TX, to Denver, CO,
with 48 passengers and four crew members.             In June 2009, Budhan had pleaded guilty to a
Upon arrival in Denver, it was reported to            conspiracy to defraud charter customers and
officials of the operating carrier, Shuttle           brokers, and to impede and obstruct FAA.
America, that Cope smelled of alcohol and             Budhan admitted that from November 2002
appeared to be under the influence of alcohol.        through November 2003, PJM did not have
Arrangements were made to obtain a breath             an FAA-issued Part 135 certificate, permitting
alcohol specimen from Cope at the Denver              it to fly on-demand commercial flights. He
airport.                                              also admitted that he and his co-conspirators
                                                      misrepresented that PJM operated in
Cope was presumed to be under the influence           compliance with FAA rules and regulations.
of alcohol while operating the commercial             During the 1-year period when PJM did not
aircraft based on a subsequent analysis of his        have a Part 135 certificate, the charter jet
blood alcohol content. Cope was terminated            company flew nearly 100 commercial charter
by Shuttle America on December 9, 2010.               flights for more than $1 million in compensation.
In January 2010, FAA issued an emergency
order of revocation of Cope’s pilot license and       Budhan was sentenced to 2 years probation,
medical certificate.                                  and ordered to pay $1 million in restitution and
                                                      a $100 special court assessment. Restitution
Cope was sentenced to serve 6 months                  will be made payable to those customers who
imprisonment, 6 months home detention,                paid for the Part 135 service.
and 2 years of supervised release. In lieu of a




                                  Aviation and Special Programs   •   6
November 29, 2011                                    Note: Indictments, informations, and criminal
                                                     complaints are only accusations by the
Owner of San Francisco Export Com-                   Government. All defendants are presumed
pany Charged With Illegal Transpor-                  innocent unless and until proven guilty.
tation of Hazardous Materials                        November 29, 2011
Medchem Corporation (Medchem) and Hasan              Pittsburgh Company and Two Officials
	
Ibrahim were indicted in U.S. District Court,
San Francisco, CA, on charges of illegally           Charged With Illegal Hazmat
transporting hazardous materials, attempted          Shipments
placement of destructive substances on aircraft,
attempted smuggling of goods, and failure to         Field Environmental Instruments, Inc. (FEI),
file export information. Ibrahim—president and       Walter Caldwell, and Anthony Morgavo were
owner of Medchem, an exporter based in South         indicted in U.S. District Court, Pittsburgh, PA,
San Francisco—is being charged for the illegal       for willfully causing Federal Express to illicitly
shipment of chemicals, medical equipment,            transport pressurized gas cylinders by air.
and diagnostics to Saudi Arabia. Medchem was
required to properly identify the materials to       The investigation determined that FEI used
be shipped and ensure the correct labels were        Federal Express and United Parcel Service to
affixed to the packages and containers.              ship regulated gas cylinders - ranging from
                                                     17 to 68 liters, with pressure ratings of 1,800
According to the indictment, Ibrahim caused          psi - to customers throughout the country.
64 boxes of goods to be delivered to a freight       FEI regularly shipped compressed hydrogen,
forwarder for export to Saudi Arabia. The            isobutene, methane, and other gases for use
shipment contained over 30 separate chemicals        in environmental testing and construction
designated as hazardous material under DOT           practices. More than 2,500 alleged illegal
hazardous materials regulations. Items shipped       shipments were identified. Morgavo and
included Sulfuryl Chloride and Chloroacetonitrile,   Caldwell served as FEI shipping officials
materials that are prohibited under Federal law      and allegedly failed to declare the shipment
from being transported by aircraft. None of the      as hazardous materials as required by DOT
labels on the boxes indicated the contents as        regulations.
containing hazardous materials.
                                                     PHMSA assisted with this investigation.
This investigation is being conducted jointly with
the FBI, U.S. Department of Commerce, IRS,           Note: Indictments, informations, and criminal
and FAA.                                             complaints are only accusations by the
                                                     Government. All defendants are presumed
                                                     innocent unless and until proven guilty.



                                 Semiannual Report to Congress   •   7
December 20, 2011                                     January 11, 2012
Georgia Aviation Consultant Indicted                  FAA-Designated Airworthiness
for Producing Fraudulent FAA                          Representative and Aviation Mechanic
Supplemental Type Certificates                        Indicted for Conspiring to Falsify an
In U.S. District Court, Atlanta, GA, Andrew
                                                      Aircraft Inspection
K. Anderson was indicted on charges of                Franklin Williams and Stacy Willis were indicted
conspiracy and wire fraud in connection with          by a Federal grand jury in U.S. District Court,
his role in preparing and transmitting fraudulent     Jacksonville, FL, on charges of fraud involving
FAA Supplemental Type Certificates (STC)              aircraft and space vehicle parts in interstate
electronically to contractors employed by the         commerce and smuggling goods from the United
Dubai Air Wing, which oversees aircraft operated      States.
for the Prime Minister of the United Arab
Emirates.
                                                      The investigation revealed in 2008 that Williams, a
                                                      certified FAA airframe and power plant mechanic
Initially, FAA charged Anderson, President of         (A&P) with inspection authorization, and an
Anderson Aviation Consultants, for creating a         FAA-designated airworthiness representative
fraudulent STC and four fraudulent Airplane Flight    conspired with Willis, also an FAA A&P mechanic,
Manual Supplements. As a result, FAA issued a         to falsify annual inspection and maintenance
Civil Penalty to Anderson based on his conduct        record entries for the engine and propellers for
and revoked his FAA Designated Engineering            a Piper PA-32R 301T, so Williams could issue an
Representative authority. However, Anderson           FAA Export Certificate of Airworthiness.
refused to pay the Civil Penalty and created at
least four additional fraudulent STCs. Anderson
                                                      The Piper was damaged by Hurricane Katrina in
obtained in excess of $630,000 as a result of his
                                                      2005 and deemed beyond economical repair. In
conduct. On December 14, 2011, Tod Anderson,
                                                      2008, the aircraft was purchased from a salvage
a business associate of Andrew Anderson,
                                                      company by a Brazilian who arranged for the
pleaded guilty to a one count information
                                                      aircraft to be deregistered and exported to Brazil
charging him with conspiracy to commit wire
                                                      by Williams. Before the aircraft reached Brazil,
fraud in connection with his role in the scheme.
                                                      FAA coordinated with CBP and requested to
                                                      inspect the aircraft. Although already exported,
FAA provided technical assistance in this             CBP was able to return the container to the Port
investigation.                                        of Jacksonville where the aircraft was inspected
                                                      by FAA and deemed un-airworthy.
Note: Indictments, informations, and criminal
complaints are only accusations by the                This investigation was conducted jointly with the
Government. All defendants are presumed               Department of Homeland Security’s Homeland
innocent unless and until proven guilty.

                                  Aviation and Special Programs   •   8
Security Investigations office with assistance         benefits, Deskins falsely certified to the
from FAA and CBP.                                      Department of Labor on annual forms that he had
                                                       been engaged in no work activities during the
Note: Indictments, informations, and criminal          reporting periods.
complaints are only accusations by the
Government. All defendants are presumed                This investigation is being conducted jointly with
innocent unless and until proven guilty.               the FBI and the Department of Labor, Office of
                                                       Inspector General.
January 13, 2012
                                                       January 26, 2012
Former Air Traffic Controller Convicted
of Workers’ Compensation Fraud                         South Florida Men Convicted in
                                                       Connection With Aircraft Parts Fraud
Raymond Elmo Deskins, III, of Potomac Falls, VA,
was convicted by a Federal jury on mail fraud and      In U.S. District Court, Miami, FL, Henry McFlicker
false statements in U.S. District Court, Alexandria,   and Ayodha Persaud—owners of Daytona
VA. Deskins failed to disclose work activities         Aerospace, a South Florida aircraft parts broker
in the construction industry to the Department         and licensed Department of Defense (DOD)
of Labor’s Office of Workers’ Compensation             contractor—each pleaded guilty to one count of
Programs.                                              conspiracy to commit aircraft parts fraud.

Deskins was indicted in August 2011 on charges         The investigation was based on allegations that a
of mail fraud and making false statements in           conspiracy existed in which companies who were
connection with the receipt of Federal workers’        not approved by FAA or DOD had manufactured
compensation benefits. According to court              aircraft parts for military and civilian aircraft.
records and evidence at trial, Deskins—a former        As part of the plea agreement, McFlicker and
air traffic control specialist at the Washington       Persaud admitted to conspiring with others to
Air Route Traffic Control Center in Leesburg,          knowingly, and with intent to defraud, make a
VA—received nearly $700,000 in benefits from the       materially fraudulent representation concerning
Federal workers’ compensation program since            aircraft parts. In addition, McFlicker and Persaud
2004.                                                  admitted to directing another Daytona employee
                                                       to use a traceability documentation spreadsheet,
From 2005 to 2008, while receiving disability          entitled “Trace for All,” that was used to generate
benefits based on his inability to perform work        fraudulent inventory lists, certification forms, and
of any kind, Deskins worked as a construction          letters bearing various airline corporate logos that
foreman for a Sterling, VA, based general              were in turn attached to the shipment of various
contractor. To continue to receive his monthly         aircraft parts disguising their true origin.




                                  Semiannual Report to Congress    •   9
This investigation is being conducted jointly with     December 16, 2011, and ordered that the Federal
the Defense Criminal Investigative Service, U.S.       sentence be served consecutive to the juvenile
Air Force Office of Special Investigations, the FBI,   sentence that Harris-Moore escaped from in
and ICE, with FAA providing technical assistance.      2008.

January 27, 2012                                       Under the terms of the plea agreement,
Colton Harris-Moore, the “Barefoot                     Harris-Moore forfeits any financial gain from
                                                       telling his story and the proceeds are to be
Bandit,” Sentenced                                     used to compensate the victims of his crimes.
Colton Harris-Moore, 20, of Camano Island, WA,         Harris-Moore acknowledged that the amount of
was sentenced in U.S. District Court, Seattle,         loss caused to victims of his crimes is at least
WA. In June 2011, Harris-Moore—also known              $1.4 million. On March 15, 2012, a Schedule
as the Barefoot Bandit—pleaded guilty to bank          of Restitution Order was filed in District Court
burglary, interstate transportation of a stolen        ordering Harris-Moore to pay his victims
aircraft, interstate and foreign transportation of     $1,336,429.
a stolen firearm, being a fugitive in possession
of a firearm, and piloting an aircraft without a       This investigation was conducted jointly with
valid airman’s certificate. Harris-Moore’s lengthy     the FBI and numerous State and local law
crime spree began in the Pacific Northwest and         enforcement agencies from across the county.
across the United States to Indiana, ending with a
crash landing in the Bahamas. Harris-Moore was
                                                       February 16, 2012
sentenced to 78 months in prison for the first four    Florida Pilot Indicted for Falsification of
	
charges, 36 months in prison for flying without
a valid pilot’s license, and 3 years of supervised
                                                       His FAA Airman Medical and Student
release.                                               Pilot Certificate
                                                       Kelvin Changur of Miami, FL, was indicted in U.S.
The investigation revealed that Harris-Moore
                                                       District Court, Fort Lauderdale, FL, for falsifying
illegally flew stolen aircraft approximately six
                                                       his FAA application for an airman medical and
times in and around Washington State. At
                                                       student pilot certificate. Changur was also
sentencing, U.S. District Judge Richard A. Jones
                                                       indicted for attempting to use a U.S. passport
noted that Harris-Moore had endangered others
                                                       containing the same false information provided
with his “reckless conduct ... and a host and
                                                       on his FAA application form.
variety of poor choices.” The Judge told him it
was time for a “new life flight plan.” Judge Jones
                                                       The investigation revealed that on several
ordered that Harris-Moore’s Federal sentence be
                                                       occasions Changur provided a false date of
served concurrent with an 87-month sentence
                                                       birth to FAA and the Department of Homeland
imposed in Island County Superior Court on
                                                       Security, Homeland Security Investigations on



                                  Aviation and Special Programs   •   10
FAA documents, as well as a U.S. passport, in         pilot-in-command on nine occasions. In June
an attempt to obtain an FAA airman medical            2011, FAA revoked Johnson’s pilot certificate.
certificate. Additionally, Changur sought             While Johnson’s Commercial Pilot Certificate
employment with a commercial air carrier using        was revoked and his Flight Instructor Certificate
the fraudulent documentation, which was caught        was expired, he flew as the pilot-in-command
through verification checks by the potential          and as a flight instructor on September 23
employer.                                             and September 27, 2011. During the flight
                                                      instruction on September 27, the aircraft’s
The investigation is being conducted jointly          propeller struck the runway.
with Homeland Security Investigations and FAA
Security.                                             March 5, 2012
                                                      Former FAA Employee Sentenced for
Note: Indictments, informations, and criminal
complaints are only accusations by the
                                                      Theft of Unearned U.S. Military Pay
Government. All defendants are presumed               Carl Marquis, former FAA Safety Engineer, was
innocent unless and until proven guilty.              sentenced in U.S. District Court, Greenbelt,
                                                      MD, for false statements in connection with
February 24, 2012                                     his unauthorized receipt of military pay.
Virginia Pilot Sentenced for Flying With              Marquis was ordered to serve 4 months
                                                      incarceration followed by 3 years supervised
a Revoked Pilot Certificate                           release, including 6 months of home detention.
Andrew Ryan Johnson of Virginia Beach, VA,            Restitution was also ordered in the amount of
pleaded guilty in U.S. District Court, Norfolk, VA,   $159,712.
to one count of knowingly operating an aircraft
subsequent to his Commercial Pilot Certificate        Marquis was a Commander in the U.S. Navy
having been revoked by FAA. Johnson was               and was on active duty from June 3 through
sentenced to 20 days in jail, assessed a $100         August 31, 2009, at Patuxent River Naval
fine, and placed on probation for 1 year. While       Air Station in Maryland. Despite returning to
on probation, Johnson is not allowed to pilot an      reserve status, Marquis continued to receive full
aircraft or conduct flight instruction.               pay and benefits from the Navy from September
                                                      2009 to November 2010, totaling $159,712.
Our investigation revealed that in 2009, Johnson’s    During the investigation, Marquis admitted he
Commercial Pilot Certificate was suspended            was aware he was receiving active duty pay
for 120 days for giving flight instruction in an      from the Navy, even though he was no longer
aircraft that he knew was not airworthy. While        on active duty and while working at his full-time
under the 120-day suspension, Johnson flew as         position with FAA.




                                  Semiannual Report to Congress   •   11
This investigation was conducted jointly with       March 22, 2012
the Defense Criminal Investigative Service and
                                                    South Florida Aircraft Company
the Naval Criminal Investigative Service.
                                                    Employees Charged With Conspiracy
March 9, 2012                                       to Commit Aircraft Parts Fraud
Former Cargolux Airlines Executives                 In U.S. District Court, Miami, FL, a multi-
Sentenced for Price Fixing                          count indictment was filed against Rangel
                                                    Fernandez (president), Ivan Fernandez (vice-
On March 9, 2012, Ulrich Ogiermann and
                                                    president), Jerry Frystak (general manager),
Robert Van de Weg, former Senior Vice
                                                    Dennis Romero (quality inspector), Lisbet
Presidents for Sales and Marketing, Cargolux
                                                    Gonzalez (office manager), Luis Balarezo, Saul
Airlines International S.A., were sentenced in
                                                    Hernandez, Hermes Reyes, Pedro Leon, Aileen
U.S. District Court in West Palm Beach, FL. In
                                                    Bermudez, Geovanni Hernandez, Francisca
December 2011, Ogiermann and Van de Weg
                                                    Diaz, Chabela Aneiros, Myrian Cobo, Ivonne
pleaded guilty to conspiracy to fix the cargo
                                                    Portales, and Diego Garcia, employees of
rates charged to customers for international air
                                                    Aircraft Transparencies Repair, Inc. (ATR) and
shipments to and from the United States. From
                                                    Transparencies Engineering Group, Inc. (TEG).
October 2001 through at least February 2006,
                                                    They were charged with conspiracy to sell and
Ogiermann and Van de Weg conspired with
                                                    falsely certify to commercial aviation customers
others to suppress and eliminate competition
                                                    the airworthiness of aircraft cockpit windows
on cargo rates by fixing and coordinating
                                                    using FAA Authorized Release Certificates (FAA
charges, including security and fuel surcharges,
                                                    Form 8130-3s), work orders, and traceability
charged to customers for air cargo services to
                                                    documentation knowing that they were not
and from the United States. Ogiermann and Van
                                                    authorized by FAA to certify the airworthiness
de Weg and their co-conspirators participated
                                                    of these windows.
in meetings to fix and coordinate these charges
imposed by their airlines.
                                                    The investigation revealed that from
                                                    approximately August 2009 to August 2010,
Ogiermann and Van de Weg were each
                                                    ATR employees continued repairing aircraft
sentenced to 13 months incarceration, fined
                                                    cockpit windows despite having its repair
$20,000, and assessed $100.
                                                    station certificate revoked in July 2009. As part
                                                    of the scheme, Rangel Fernandez purchased
                                                    “as removed” aircraft cockpit windows in the
                                                    open market and backdated numerous FAA
                                                    Form 8130-3s, work orders, and traceability




                                Aviation and Special Programs   •   12
documentation, to make it appear to the
customer that the windows had been retrieved
from ATR or TEG’s inventory prior to ATR’s
repair station certificate revocation. Additionally,
serial numbers on the windows that had been
sent to ATR by its customers were changed
to disguise the source of the windows and to
further make it appear that all work had been
performed prior to the repair station revocation.

This investigation is being conducted jointly with
the Department of Labor, Office of Inspector
General; the FBI; and ICE, with substantial
assistance from FAA.

Note: Indictments, informations, and criminal
complaints are only accusations by the
Government. All defendants are presumed
innocent unless and until proven guilty.




                                  Semiannual Report to Congress   •   13
Aviation and Special Programs   •   14
                           In-Focus: Enhancing Oversight of Staffing
                               and Training at FAA’s Critical Facilities



With more than 28,000 U.S. commercial                     extensive facility training at their assigned
flights each day, ensuring FAA’s most critical            location. Those who are unable to pass the
facilities are fully staffed with qualified air traffic   training process are (1) transferred within their
controllers is vital to maintain the safety of the        assigned facilities to a new area of operation,
National Airspace System. Since 2005, FAA                 (2) transferred to a less complex air traffic
has hired and begun to train over 12,000 new              control facility to begin the training process
controllers to offset the impending retirements           again, or (3) terminated from employment
of those hired after the air traffic controllers’         with FAA. While the time it takes for individual
strike of 1981. With so many veteran controllers          controllers to certify may vary, FAA’s goal is to
leaving the workforce or becoming eligible for            have candidates complete the training process
retirement, FAA faces the risk of not having              in 2 to 3 years. Critical facilities face a potential
enough certified professional controllers                 shortage of certified professional controllers as
to effectively operate its busiest and most               they have higher rates of retirement eligibility,
complex air traffic control facilities, including         controllers in training, and trainee attrition than
Southern California, Atlanta, Chicago, and New            the national average. For example, 15 of the 21
York.                                                     critical facilities we recently visited had a higher
                                                          percentage of their controllers in training than
To become certified, new air traffic controllers          the national average of 25 percent. Between
must complete an arduous training program                 fiscal years 2008 and 2010, critical facilities
that includes learning basic air traffic control          also lost 40 percent of their trainees to attrition,
concepts at the FAA Academy, followed by                  compared to the national average of 24 percent.



                                    Semiannual Report to Congress     •   15
A contributing factor is that the complexity
of these locations makes it more difficult for
inexperienced new hires to certify.

While FAA has begun working to better allocate
staffing, it has not provided the training support
these complex facilities need to slow attrition
and ensure the success of new hires to address
staffing shortfalls. As FAA begins deploying
NextGen technologies, critical facilities will
require even more training resources for
both veteran and new controllers. Without a
consistent, national approach to address critical
facilities’ staffing and training needs now, it will
be difficult in the short term for FAA to ensure
continuity of operations and, in the long term,
effectively transition them to NextGen.




         In-Focus: Enhancing Oversight of Staffing and Training at FAA’s Critical Facilities   •   16
                                            Highway and Transit Programs




Audits                                             cases—improvements are needed in ODI’s
                                                   processes for identifying and addressing
                                                   vehicle safety defects. Specifically, we found
October 6, 2011
                                                   that ODI did not adequately track or document
Process Improvements Are Needed                    pre-investigation activities, establish a
for Identifying and Addressing Vehicle             systematic process for determining when to
                                                   involve third-party or Vehicle Research and Test
Safety Defects                                     Center assistance, follow timeliness goals for
Self-initiated                                     completing investigations, fully implement its
                                                   redaction policy to ensure consumers’ privacy,
From 2002 through 2009, the National Highway       establish a record system with documented
Traffic Safety Administration’s (NHTSA) Office     support for decisions that significantly affect
of Defects Investigation (ODI) received nearly     its investigations, or develop a formal training
14,000 complaints related to unintended            program for ODI staff. Further, while ODI’s
acceleration (UA). ODI reviewed about 4            processes are well respected internationally,
percent of these complaints across multiple        its limited information sharing and coordination
vehicle manufacturers. While NHTSA followed        with foreign countries reduced opportunities
its established procedures for investigating       to identify safety defects or recalls in an
UA issues—and the National Aeronautics             increasingly global automobile industry.
and Space Administration validated ODI’s           We made 10 recommendations to enhance
investigative results for Toyota UA-related        ODI’s processes and increase coordination

                               Semiannual Report to Congress   •   17
with foreign countries. NHTSA’s planned               concurred with two recommendations, and
actions to address eight are sufficient, but          we consider FTA’s actions to be sufficient. We
the recommendations remain open pending               requested that FTA reconsider its position in
completion of the planned action. We requested        regards to the remaining recommendations.
that NHTSA provide additional information on
the remaining two recommendations.
                                                      Investigations
January 31, 2012
                                                      October 3, 2011
Challenges to Improving Oversight of
                                                      Philadelphia Trucker in Deadly Crash
	
Rail Transit Safety and Implementing
                                                      Pleads Guilty in Federal Court
an Enhanced Federal Role
Self-initiated                                        Valerjis Belovs, a truck driver responsible for a
                                                      crash that killed one and injured several others,
Rail transit incidents since 2009 have raised         pleaded guilty to 15 false statement counts in
significant concerns about safety oversight of        Philadelphia, PA. Belovs admitted to falsifying
the Nation’s transit systems. We reported on the      his Federal Motor Carrier Safety Administration
challenges the Federal Transit Administration         (FMCSA) regulated logbooks to conceal the fact
(FTA) may face if Congress passes legislation         that he drove in excess of the allowable driving
expanding its oversight role of rail transit          hours without the required period of rest. The
safety. Although the National Transit Database        Federal charges are related to an accident on
captures basic safety incident data—such as           US 76 in Philadelphia in which one person died
fatalities, injuries, and property damage—the         and five others were seriously injured when
data are insufficient for FTA to effectively          Belov’s truck plowed into stopped traffic.
oversee transit safety at the national level.
FTA has not established goals, performance            Belovs previously pleaded guilty to various
measures, and targets that are specific to its        State charges related to the same incident,
current rail transit safety activities. If Congress   including one count of vehicular homicide. An
expands FTA’s oversight role, establishing            analysis of Belovs’ regulated driver logbooks
minimum national rail transit safety standards        revealed that at the time of the accident, he
would present a number of challenges to FTA.          was driving in excess of FMCSA maximum
Additionally, an expanded oversight role would        hours of operating a commercial vehicle. The
significantly increase FTA’s oversight and            truck’s owner, Victor Kalinitchll, was previously
enforcement activities to ensure that State and       sentenced on State charges; as was Joseph
local agencies implement any new national             Jadczak, who admitted to selling inspection
standards and regulations. We made four               stickers to Kalinitchll without inspecting the
recommendations aimed at strengthening FTA’s          truck that plunged into stopped traffic
position to take on an expanded role. FTA fully


                                 Highway and Transit Programs    •   18
The investigation was conducted jointly with       October 19, 2011
the Montgomery County District Attorney’s
                                                   New York Truck Broker Sentenced to
	
Office and the Pennsylvania State Police.
FMCSA assisted with the investigation.             Jail and Ordered To Pay $97,321 for
                                                   DBE Fraud Scheme
October 6, 2011
                                                   Brian Hotton, Owner of BCM Industries, Inc.
President and Owner of New York-                   (BCM), was sentenced in U.S. District Court,
based DBE Contractor Indicted for                  Central Islip, NY, for his role in a $3.1 million
Role in DBE Scheme                                 DBE fraud scheme. Hotton was sentenced to
                                                   serve 6 months in jail, followed by 3 years of
In U.S. District Court, New York, NY, Yona         supervised release, and ordered to pay a $200
Jimenez, president and owner of Global             special assessment and restitution to the IRS
Marine Construction Supply (GMCS), a               in the amount of $97,321 for unpaid taxes,
certified Disadvantaged Business Enterprise        interest, and penalties.
(DBE), was indicted on a mail fraud charge
for her role as a pass through DBE purporting      Hotton previously admitted that between
to provide structural steel on the Federal         1998 and 2001, BCM obtained a DBE trucking
Highway Administration (FHWA)-funded Cross         subcontract with a value of $3,150,000, while
Westchester Expressway Project.                    posing as a DBE known as VVSS Co. Inc. This
                                                   occurred on a FHWA-funded project on the
The general contractor of the project claimed      Westside Highway in New York City. Hotton
that GMCS had been awarded a subcontract           conspired with Vijay Havaldar, the owner
of over $6 million to supply structural steel to   of VVSS, to create fraudulent documents
reconstruct bridges on the project although        to generate the appearance that VVSS was
another company (a non-DBE) actually supplied      performing DBE subcontract work, when in
the steel. The general contractor then claimed     fact BCM performed the work.
credit for the “services” provided by GMCS
toward meeting the DBE goal. GMCS was paid         The investigation was conducted by the Federal
approximately 1 percent of the subcontract         Construction Fraud Task Force for the Eastern
value as a commission for its DBE “services.”      District of New York, whose members include
The indictment also seeks forfeiture in the        DOT OIG; IRS CI; the U.S. Department of Labor,
amount of legal proceeds gained by Jimenez.        Office of Inspector General, Office of Labor
                                                   Racketeering and Fraud Investigations; and the
Note: Indictments, informations, and criminal      New York City Department of Investigation.
complaints are only accusations by the
Government. All defendants are presumed
innocent unless and until proven guilty.



                               Semiannual Report to Congress   •   19
November 3, 2011                                     November 28, 2011
FMCSA Motor Carrier Safety Specialist                Co-Owner of New York Construction
Sentenced for Accepting Bribes                       Firm Sentenced for Role in a $5.2
Eric Hernandez, a former FMCSA Motor Carrier
                                                     Million DBE Fraud Scheme
Safety Specialist, was sentenced in U.S. District    Balu Kamat, President of Environmental
Court, Laredo, TX, for accepting a bribe.            Associates (EEA), was sentenced in U.S. District
Hernandez was sentenced to serve 6 months            Court in Manhattan, NY, to 6 months home
imprisonment, 6 months home confinement, and         confinement, 2 years probation, a $50,000 fine,
3 years supervised release. He was also ordered      and a $100 special court assessment. Kamat
to complete 120 hours of community service and       also paid a $188,000 criminal forfeiture (payable
pay a $100 special assessment.                       jointly with co-defendant Carmine Desio).

Hernandez, a border inspector, sold a Level          In June 2011, Kamat had pleaded guilty to mail
I Commercial Vehicle Safety Alliance (CVSA)          fraud charges regarding the use of a “front”
decal to the driver of a commercial motor            DBE on projects receiving DOT grant funds.
vehicle knowing that the vehicle had not been        Beginning in approximately 1997, Kamat, along
inspected. A CVSA decal is issued to commercial      with co-defendant Desio, caused EEA to enter
motor vehicles passing roadside or periodic          into public contracts to perform an array of
inspections performed under the authority of         subcontracting work, knowing that EEA lacked
any State government or FMCSA. The activity          the labor, equipment, and financial capability to
was reported to the Texas Department of Public       perform the work. As part of the scheme, they
Safety (Texas DPS), who initiated an investigation   agreed to put employees of a specific general
and obtained video footage capturing the             contractor (unnamed in the indictment) on EEA
incident. Hernandez was subsequently arrested.       certified payrolls. This scheme occurred on the
                                                     New York City Transit Authority’s Fulton Street
Hernandez was removed from Federal service           Transit Center-Dey Street Concourse, part of
by FMCSA. This investigation was conducted           the FTA-funded Metropolitan Transportation
with assistance from Texas DPS and FMCSA.            Authority (MTA). The concourse has a total DBE
                                                     subcontracted value of $5.2 million.

                                                     The investigation is being conducted jointly
                                                     with the MTA, Office of Inspector General;
                                                     the Department of Labor, Office of Inspector
                                                     General, Office of Labor Racketeering and Fraud
                                                     Investigations; and the Port Authority of New York
                                                     and New Jersey Office of Inspector General.



                                 Highway and Transit Programs   •   20
November 30, 2011                                     December 8, 2011
Former Vice President of                              Connecticut Bus Company and
Massachusetts Business Is Sentenced                   Its Office Manager Charged With
Christopher Wilson, senior vice president of EV
                                                      Falsification of Drivers Records
Worldwide LLC (EVW), was sentenced in U.S.            Wisla Express, LLC, of New Britain, CT, and
District Court, Boston, MA, to a prison term of a     its office manager, Dariusz Stzeborowski, of
year and 1 day followed by 6 months supervised        Rocky Hill, CT, were indicted by a Federal
release. He was also ordered to pay $100,000 in       grand jury with conspiring to obstruct a
restitution to FTA, and a special assessment of       FMCSA audit by falsifying driver records
$1,100.                                               required to be maintained under Federal
                                                      regulations for inspection. Wisla Express, LLC,
EVW and its wholly owned subsidiary,                  was a commercial passenger carrier operating
Electrastator LLC, received funding from FTA          vans, mini-buses, and tour buses.
through the Pioneer Valley Transit Authority
(PVTA) to develop a nickel-hydride battery to         The indictment alleges that between January
power a bus. EVW received approximately $4.2          2010 and September 2010, Stzeborowski, as
million in FTA funds via congressional earmarks       manager of Wisla Express, LLC, scheduled
between 2000 and 2006.                                drivers to trips knowing that the drivers would
                                                      be exceeding the maximum number of daily
The investigation disclosed that between              and weekly hours as stipulated under the law.
November 2004 and July 2006, former EVW               Stzeborowski also allegedly falsified driving
CEO Michael Armitage and Wilson conspired to          records to show that drivers did not drive
defraud FTA by submitting fraudulent invoices         over the amount of daily and weekly hours
to FTA through PVTA that claimed that the FTA         as required under the law and destroyed
share of project cost did not exceed the 50           and covered up other driving records that
percent level required under the terms of the         showed that drivers had in fact driven over the
funding and sought reimbursement for fictitious,      maximum amount of daily and weekly hours on
inflated, or ineligible expenses. Through             a regular and continuing basis.
proceeds from the invoices, Armitage and
Wilson received wire transfers of approximately       The falsified records were provided to FMCSA.
$703,000, which they used for their own benefit,      The indictment also alleges that Stzeborowski
as well as for the benefit of HSM Systems, Inc., a    instructed the drivers to falsify their driving
Canadian company they had founded.                    logs, in which they were to record their total
                                                      numbers of driving hours so that the logs
The investigation was conducted jointly with IRS CI   would not reflect that the drivers had exceeded
and assisted by the Defense Contract Audit Agency.    the hourly safety limits. The drivers were also



                                 Semiannual Report to Congress   •   21
directed to report their excess driving hours       Baltimore National Pike Project. Rivas’ duties
separately, and after those drivers were paid,      included overseeing the manufacturing of the
those separate reports would be discarded or        company’s precast products and ensuring the
destroyed.                                          company’s compliance with State regulations.

The investigation was conducted with                The investigation disclosed that FPC’s
assistance from FMCSA.                              products delivered to federally funded project
                                                    sites failed to conform to State-approved
Note: Indictments, informations, and criminal       specifications. Certain structures contained
complaints are only accusations by the              the wrong number and/or type of steel rebar
Government. All defendants are presumed             pieces in their frames; others contained
innocent unless and until proven guilty             unapproved substitutions of wire mesh in
                                                    place of steel rebar. Accordingly, none of
December 19, 2011                                   these structures conformed to State-approved
                                                    specifications, and all of them were materially
Director of Quality Control Sentenced               weaker than if they had been produced
in Highway Fraud Scheme                             according to design. The investigation further
                                                    disclosed that on numerous occasions, Rivas
Santos Eliazar Rivas was sentenced in U.S.
                                                    signed off on shipping tickets listing precast
District Court, Baltimore, MD, to 12 months of
                                                    structures whose concrete mix either had not
home detention and 24 months of probation,
                                                    been tested at all, or had been tested and
following his September 2011 guilty plea to three
                                                    failed to reach the requirement to withstand at
counts of making false statements involving
                                                    least 4,500 pounds per square inch. Based on
highway projects funded in part by FHWA.
                                                    the shipping tickets that Rivas falsely certified
Rivas, former Director of Quality Control for
                                                    on behalf of FPC, the Maryland State Highway
Frederick Precast Concrete, Inc. (FPC), was
                                                    Administration paid three prime contractors
also ordered to pay restitution in the amount of
                                                    $131,410 for the deficient materials, who in turn
$131,410.
                                                    paid FPC.

Rivas became the Director of Quality Control
                                                    Rivas is an illegal alien and is expected to
for FPC, a company that produced precast
                                                    be deported by ICE at the conclusion of his
concrete structures, including structures for
                                                    sentence. FHWA and ICE provided assistance
drainage, used in construction projects involving
                                                    to OIG during this investigation.
the Woodrow Wilson Bridge and the I-70/




                                Highway and Transit Programs   •   22
December 21, 2011                                   Government. All defendants are presumed
                                                    innocent unless and until proven guilty.
Trucking Company and Owner 

Charged With Making a False 
                       December 21, 2011
Statement and Continuing Operation                  Owners of a New Jersey
After Imposition of an Out-of-Service               Trucking Company Indicted for
Order                                               False Statements, Union Fund
Devasko Dewayne Lewis of Cordele, GA, was           Embezzlement, and Tax Fraud on a
taken into Federal custody and appeared before      $2.2 Billion FTA-Funded Project
a United States Magistrate Judge in Columbus,
GA, for an initial appearance and bond              Gerardo and Vincent Fusella, brothers, were
proceedings. Lewis and his trucking company,        indicted in U.S. District Court, Brooklyn, NY.
DDL Transport, LLC, were indicted by a Federal      The 31-count indictment charges Vincent
grand jury in November 2011 on one count of         and Gerardo Fusella with multiple counts of
making a false statement and seven counts           conspiracy, mail and wire fraud, filing false tax
of continuing operation after imposition of an      returns, embezzlement of union benefit funds,
out-of-service order.                               and false statements on projects receiving FTA
                                                    grant funds. Vincent and Gerardo Fusella are
The indictment alleges that Lewis made a            co-owners and operators of Fusella Group LLC,
false statement in an application for motor         a New Jersey-based trucking company.
carrier authority (Form OP-1)—filed on July 12,
2011, with FMCSA—when he stated that he             It is alleged that between 2007 and 2009, the
did not have a relationship with another motor      Fusella brothers engaged in a series of fraud
carrier within the last 3 years, despite having     schemes in connection with its subcontract
operated Lewis Trucking Company, which              work on the Port Authority New York New
had been ordered out of service based on            Jersey (PANYNJ) World Trade Center (WTC)
safety violations. The remaining seven counts       Transportation Hub project. Fusella Group is
allege that Lewis and DDL Transport, LLC,           alleged to have underreported the number of
knowingly and willfully operated commercial         hours their employees trucked, operated a
motor vehicles in Georgia on seven occasions        “double-breasted” company—Alpine Investment
although they were precluded from operations        Group—to hide drivers’ hours from the union,
based on the imminent hazard out-of-service         and to have failed to collect and pay to the
order.                                              IRS certain payroll taxes. Fusella Group is also
                                                    alleged to have submitted false certified payrolls
Note: Indictments, informations, and criminal       to the PANYNJ stating that they were paying
complaints are only accusations by the              the prevailing wage and fringe benefits to its



                                Semiannual Report to Congress   •   23
employees as required by the Davis Bacon Act.      bank accounts to facilitate the scheme. After ITA
FTA has committed in excess of $2.2 billion on     established the false Pennsylvania residency of
the WTC Hub project.                               the unqualified applicants, corrupt interpreters
                                                   provided answers to the customers while
The investigation is being conducted jointly       taking the FMCSA regulated CDL Knowledge
with the U.S. Department of Labor’s Office of      Test. The conspirators aided approximately
Labor Racketeering and Fraud Investigations, the   400 unqualified applicants to falsely obtain a
PANYNJ Office of Inspector General, and IRS CI.    Pennsylvania CDL.


Note: Indictments, informations, and criminal      Irina Peterson and Khrystyna Davyda were
complaints are only accusations by the             sentenced to 60 months probation and ordered
Government. All defendants are presumed            to forfeit $24,350 and $14,500, respectively.
innocent unless and until proven guilty.           Iryna Starovoyt was sentenced to 36 months
                                                   probation and 100 hours community service,
December 28, 2011                                  and ordered to forfeit $10,000. Tair Rustamov
                                                   was sentenced to 6 months incarceration to
Pennsylvania Truck Driving School                  be served at a halfway house and 36 months
Employees Sentenced                                supervised release, and ordered to forfeit
                                                   $2,300. Vilchik was sentenced to 6 months
In December 2011, Irina Peterson, Khrystyna
                                                   home confinement and 60 months supervised
Davyda, Iryna Starovoyt, Tair Rustamov, Leonid
                                                   release, and ordered to forfeit $3,000. Aminov
Vilchik, Mikhail Aminov, Irina Rakhman, Tatyana
                                                   was sentenced to 6 months imprisonment and
Kroshnev, and Vitaliy Kroshnev were sentenced
                                                   36 months supervised release, and ordered to
in U.S. District Court, Philadelphia, PA, on
                                                   forfeit $7,800. Rakhman was sentenced to 6
various charges, including conspiracy, making
                                                   months incarceration to be served at a halfway
false statements, and aiding and abetting. The
                                                   house and 60 months supervised release, and
named defendants were conspirators who
                                                   ordered to forfeit $1,600. Tatyana Kroshnev
operated International Training Academy (ITA),
                                                   was sentenced to 24 months imprisonment and
which purported to be both a truck-driving
                                                   36 months supervised release, and ordered to
school and tractor-trailer rental business. ITA
                                                   forfeit $445,450 jointly with defendant Vitaliy
rented tractor-trailers for the FMCSA-regulated
                                                   Kroshnev. Vitaliy Kroshnev was sentenced
commercial driver’s license (CDL) Skills Test.
                                                   to 30 months imprisonment, 36 months
                                                   supervised release, and the joint forfeiture
The named conspirators allegedly bypassed          with Tatyana Kroshnev.
FMCSA regulations by providing customers
with false Pennsylvania residency documents
used to satisfy Pennsylvania Department of
Transportation requirements and to open illicit



                                Highway and Transit Programs   •   24
December 29, 2011                                     January 9, 2012
Former New York Federal Motor                         Owners and Two Employees of
Carrier Safety Administration                         Moving Company Indicted in Hostage
Supervisor Sentenced to Jail for                      Freight Scheme
Soliciting Bribes                                     Yaron Levin; Liat Lee Levin; Francisco Guevara;
James H. Wood, former Supervisory Highway             John Allen Darby; Golden Hand Moving, LLC;
Safety Specialist, FMCSA, Buffalo, NY, was            and Movers USA, LLC, were indicted in U.S.
sentenced to serve 18 months in Federal prison        District Court, Denver, CO, on charges of
in U.S. District Court, Buffalo, NY, for soliciting   conspiracy, wire fraud, extortion, making a false
bribes from Canadian trucking companies. In           bill of lading, and theft from interstate shipment.
addition, following his period of incarceration,      The Levins owned and operated Golden Hand
Wood will serve 24 months of supervised               Moving, LLC, subsequently Movers USA, LLC.
release and was also ordered to pay a $41,300
forfeiture and a special assessment of $100 to        The charges are based on allegations that
the Government.                                       Golden Hand Moving/Movers USA engaged
                                                      in a hostage household goods scheme. The
In June 2011, Wood previously pleaded guilty          scheme entailed luring customers into doing
to bribery charges and admitted that from             business with Golden Hand Moving/Movers
2008 through 2011, he requested and accepted          USA by offering extremely low estimates,
bribes from consultants working for Canadian          taking possession of customers’ household
trucking companies. In exchange, Wood                 goods, then significantly increasing the
postponed safety inspections and ensured              price and witholding delivery of the goods
those companies would receive satisfactory            until the customers paid the inflated price.
ratings. In addition, Wood provided the               Customers were told that if they refused to
consultants with internal FMCSA information,          pay the increased price, their goods would be
including lists of other trucking companies           auctioned off.
scheduled to be audited.
                                                      This investigation is being conducted jointly
Subsequent to his arrest, FMCSA terminated            with the FBI, with assistance from FMCSA.
Wood’s employment. This investigation was
conducted jointly with the FBI.                       Note: Indictments, informations, and criminal
                                                      complaints are only accusations by the
                                                      Government. All defendants are presumed
                                                      innocent unless and until proven guilty.




                                 Semiannual Report to Congress   •   25
January 10, 2012                                     Joshua Paulson, Jose Luis Ruiz, Jorge Arellano,
                                                     Charles Romo, Frank Enriquez, and Scott
North Carolina Trucking Company
                                                     McFarland were indicted by an El Paso County
President Pleads Guilty to False                     grand jury in El Paso, TX, on State charges of
Statements                                           falsifying Government records with the intent to
                                                     defraud.
In U.S. District Court, Greensboro, NC, Roger D.
“Butch” Mabe, Jr., president and owner of Mabe       The former El Paso Police Department
Trucking Company, Inc., Eden, NC, pleaded            officers are accused of submitting overtime
guilty for himself and his company to a charge       reimbursement requests containing false
related to falsification of driver’s logs.           information as to the times worked and the
                                                     number of traffic citations issued in 2009 while
The investigation revealed that Mabe and his         working overtime under the Selective Traffic
company falsified driver’s duty status logs for      Enforcement Program, which is funded through
the purpose of concealing from FMCSA the             a NHTSA grant.
hours driven, as required by Federal Motor
Carrier Safety Regulations. These regulations        This investigation is being conducted jointly with
limit the number of hours a truck driver can         the El Paso Police Department, with assistance
operate a vehicle to reduce the risk of accidents    from NHTSA and the Texas Department of
caused by driver fatigue. Truck drivers are          Transportation.
required to record their duty status on logs
to ensure they do not exceed the maximum             Note: Indictments, informations, and criminal
number of allowable driving hours, and that they     complaints are only accusations by the
receive sufficient rest before driving again. Mabe   Government. All defendants are presumed
and his company allegedly falsified such logs to     innocent unless and until proven guilty.
avoid detection from law enforcement, creating
a threat to public safety.                           January 17, 2012

This investigation was conducted with
                                                     Vermont Drug Testing Company
assistance from FMCSA.                               Owner Pleads Guilty to Making False 

January 12, 2012, to March 29, 2012
                                                     Statements
Former El Paso Police Officers                       Mouinir R. Khouri pleaded guilty in U.S. District
                                                     Court in Brattleboro, VT, to making a false
Indicted in Traffic Ticket Scheme                    statement on a matter within the jurisdiction
Involving NHTSA Grant Money                          of DOT in relation to a scheme to defraud
                                                     transportation companies employing drivers
Former detective Ana Reza and a retired patrol       subject to random drug testing.
officer, Raul Ramirez, as well as Luis Acosta,


                                 Highway and Transit Programs   •   26
Khouri, who did business as Mobile Testing          to replace furniture at the company’s downtown
Services, Inc. (MTSI), represented himself as a     Roanoke administration building. Valley Metro
Third Party Administrator, capable of assisting     hired Holdren to complete the project.
transportation companies in complying with
DOT regulations requiring that urine samples        In her plea, Holdren admitted she fabricated
be obtained by trained collectors and shipped       and submitted multiple bids of furniture vendors
to licensed labs with a completed Control and       to Valley Metro in relation to the project. She
Custody Form (CCF) for drug testing. Test           admitted to fabricating and inflating all vendor
results must then be reviewed by a Medical          bids, thus guaranteeing that Valley Metro would
Review Officer (MRO), a licensed physician          have to pay more than the true cost associated
trained in substance abuse.                         with the project. Following Valley Metro’s
                                                    acceptance of the bids, Holdren submitted
In 2009, Khouri subverted the role of the MRO       inflated invoices related to the bids that included
by completing the CCFs with MTSI’s address,         inflated and nonexistent shipping costs.
receiving test results that were not reviewed
by an MRO and falsely indicating that they had      Subsequently, Valley Metro paid the furniture
received an MRO review. In cases of positive        vendors directly based on the inflated bills it had
results, Khouri purported to act as the MRO         received from Holdren. The vendors then issued
though not qualified to do so. After Khouri’s       checks to Holdren for the difference between
contracted drug testing lab stopped testing due     the true costs and the costs paid by Valley Metro
to nonpayment from Khouri, he prepared false        that were based on the defendant’s deceptions.
CCFs for untested specimens, misrepresenting        The total loss caused by the defendant’s actions
that the specimens had tested negative and          is between $80,000 and $120,000.
billing his clients for services not provided.
                                                    This investigation was conducted jointly with the
This investigation was conducted with               U.S. Postal Inspection Service.
assistance from FMCSA.
                                                    February 2, 2012
January 17, 2012
                                                    Concrete Companies Sentenced for
Virginia Woman Pleads Guilty to                     Conspiring To Manipulate the Ready-
Embezzling DOT Funds                                Mix Concrete Market
Diane Holdren, of Roanoke, VA, pleaded guilty in
                                                    GCC Alliance Concrete (GCC), Great Lakes
U.S. District Court, Roanoke, VA, to one count of
                                                    Concrete, and Tri-State Ready Mix were
willfully and knowingly embezzling money from
                                                    sentenced in U.S. District Court, Sioux Falls, IA,
DOT. In 2006, Valley Metro, the business entity
                                                    for Sherman Antitrust Act violations involving a
that manages the Roanoke City bus service, was
                                                    scheme to manipulate the ready-mix concrete
awarded over $80,000 in grant funds from FTA


                                Semiannual Report to Congress   •   27
market via rigged bids and territorial allocations    In U.S District Court, Columbia, SC, Brenda Kay
for ready-mix concrete sold in Iowa. On               Poston, a former South Carolina Department
February 3, VS Holdings Company was also              of Motor Vehicles (SCDMV) Customer Service
sentenced for its involvement in this scheme.         Representative, pleaded guilty to charges of
                                                      making false statements related to a scheme
GCC received 18 months probation; a $1,200            that resulted in the issuance of CDLs to
special assessment; and community service as          unqualified applicants.
defined by supplying $100,000 in concrete to
non-profit organizations in the affected areas        The investigation was initiated as a result of a
of the fraud. In addition, GCC has to include         request for assistance from SCDMV following its
$10,000 in advertising to solicit non-profits to      discovery that Poston aided several individuals
define desired projects and to announce that          in the creation of false CDL test scores;
this advertising is in response to the 18-month       knowledge and road test scores and operational
probation. GCC’s probation will end upon              enhancements, such as hazardous materials;
completion of any work, or after 18 months.           and passenger endorsements by entering false
                                                      information into SCDMV databases. OIG and
Great Lakes Concrete received no probation            SCDMV conducted a historical review of the
due to the fact that Kent Stewart, President, was     Driver History Records System, which identified
fined $400,000, paid a special assessment of          19 drivers with suspicious or unverifiable
$400, and is currently on supervised release.         credentials dating back to 2004. Poston
Tri-State Ready Mix received 5 years probation,       confessed to her role in the issuance of 19
a $500,000 fine, and a special assessment of          CDLs, and 13 drivers admitted to obtaining their
$40. VS Holdings Company was ordered to pay           CDLs or endorsements fraudulently. SCDMV
a $300,000 fine and a $400 special assessment.        officials instituted administrative revocations
                                                      of those drivers’ credentials and offered re-
The affected volume of commerce in this case          examinations of all drivers believed to be the
was $14.7 million. This case was successfully         recipient of fraudulent CDLs.
prosecuted with the assistance of the FBI and
the Department of Justice’s Antitrust Division.       Poston was terminated from her position and
                                                      she later fled the jurisdiction of the U.S. District
February 2, 2012                                      Court in South Carolina. Several months later,
                                                      with the assistance of the U.S. Marshals service,
South Carolina Department of Motor                    Poston was returned to Columbia, SC, for
                                                      arraignment.
Vehicles Employee Pleads Guilty
to Issuing Fraudulent Commercial                      This investigation was conducted jointly with the
Driver’s Licenses                                     South Carolina Department of Law Enforcement
                                                      Division.


                                  Highway and Transit Programs   •   28
February 14, 2012                                     February 14, 2012
Owner of Illinois Construction                        Former Tennessee Guardrail
Company Charged in DBE Fraud                          Contractor Convicted of Obstruction
Scheme                                                of Justice Following Destruction of
Anthony Capello owner of Diamond Coring,
                                                      Documents Requested by a Federal
in Chicago, IL, was charged in U.S. District          Grand Jury
Court in Illinois with one count of mail fraud in
a scheme to use a front DBE on Government             Allen Defoe, former owner of Tennessee
contracts.                                            Guardrail, Inc. (TNG), pleaded guilty in U.S.
                                                      District Court, Nashville, TN, to one count
                                                      of obstruction of justice for his role in the
From 1999 to May 2006, Capello operated
                                                      destruction of documents that were requested
and controlled the operations of The Stealth
                                                      by the Federal grand jury in 2006. The Federal
Group Inc., (SGI), a false front DBE allegedly
                                                      grand jury was in the midst of an investigation
owned by his wife. As a result, Capello used
                                                      focusing on antitrust violations on State
SGI to wrongly obtain more than $2.3 million in
                                                      transportation contracts.
Government contracts where a woman-owned
business Enterprise/DBE was required.
                                                      A Federal task force consisting of State and
                                                      Federal agencies, including DOT OIG, was
This investigation was worked with the
                                                      formed to determine if highway contractors
cooperation of the FBI; Department of Labor,
                                                      were engaging in antitrust violations during
Office of Inspector General; City of Chicago
                                                      the bid process for contracts advertised by
Office of Inspector General; and the U.S.
                                                      the Tennessee Department of Transportation
Attorney’s Office.
                                                      (TDOT). During the investigation, agents
                                                      reviewed the circumstances surrounding
Note: Indictments, informations, and criminal
                                                      multiple contracts awarded to TNG as well as
complaints are only accusations by the
                                                      the conduct of a former TDOT employee whose
Government. All defendants are presumed
                                                      duties included oversight of the TDOT and TNG
innocent unless and until proven guilty.
                                                      contracts.

                                                      As part of the investigation, Defoe was ordered
                                                      to produce multiple documents relating to his
                                                      business records, including records relating to
                                                      the purchase of gifts or anything of value, or
                                                      relating to current or former employees of TDOT.
                                                      During the subsequent investigation, agents



                                  Semiannual Report to Congress   •   29
learned that between May 2006 and August            Note: Indictments, informations, and criminal
2006, Defoe, in concert with others, conspired to   complaints are only accusations by the
shred various documents that he was previously      Government. All defendants are presumed
ordered to produce to the grand jury with the       innocent unless and until proven guilty.
assistance of a commercial document shredding
company. Defoe’s actions were viewed as an          March 5, 2012
effort to substantially impede and obstruct the     Owner of Staten Island-Based
ongoing investigation, and as a result, he was
charged with obstruction of justice.                Construction Company Pleads Guilty
                                                    Madeline Pepe, owner of Staten Island-based
This investigation was conducted jointly with the   MS Construction Corporation (MSC), pleaded
Department of Justice, Office of the Attorney       guilty in U.S. District Court, New York City,
General of Tennessee, and the Tennessee             NY, to charges of conspiracy to commit mail
Bureau of Investigation.                            and wire fraud. Pepe admitted that between
                                                    1994 and March 2011, she participated in a
February 16, 2012
                                                    conspiracy to use MSC as a front DBE for
Dallas County Deputy Sheriffs Indicted              non-minority firms Crossboro Contracting Co.;
in Local Court for Traffic Ticket Scheme
	          RMD Holdings (doing business as Nationwide
                                                    Construction Group); and A.B. Recycling, LLC,
Involving NHTSA Grant Money                         in order to give the appearance MSC was using
                                                    DBE contractors.
Dallas County Deputy Sheriffs Johnny Quarles
Jr., Derce Kirby, and Sherman McIntyre were
indicted by a Dallas County Grand Jury, Dallas,     The fraudulent use of the front DBE company
TX, on multiple State charges of tampering with     involved participation on various FHWA-funded
a Government record with the intent to defraud.     projects and an FAA-funded project. In reality,
                                                    MSC did not perform a commercially useful
                                                    function and the work was performed by
The subjects are accused of submitting overtime
                                                    non-minority firms. The amount of the MSC
reimbursement requests containing false
                                                    subcontracts involved approximately $2 million.
information as to the times worked and number
                                                    As part of her guilty plea, Pepe agreed to a
of traffic citations issued in 2009, 2010, and
                                                    monetary forfeiture provision, the amount to be
2011 while working overtime under the Selective
                                                    determined at a later date.
Traffic Enforcement Program, which is funded
through a NHTSA grant.
                                                    This case is being conducted jointly with the
                                                    Department of Labor, Office of Labor Racketeering
This investigation is being conducted jointly
                                                    and Fraud Investigations; the Port Authority of New
with the Dallas County Sheriff’s Office,
                                                    York and New Jersey, Office of Inspector General;
with assistance from NHTSA and the Texas
                                                    and the New York City Department of Investigation.
Department of Transportation.

                                 Highway and Transit Programs   •   30
March 14, 2012                                        complaints are only accusations by the
                                                      Government. All defendants are presumed
Georgia Woman Indicted in Fraudulent
                                                      innocent unless and until proven guilty.
Double Brokering Scheme
                                                      March 16, 2012
Tina Blyth, Bainbridge, GA, was indicted by a
Federal grand jury in U.S. District Court, Macon,     North Carolina Transportation
GA, on 10 counts of fraud by private interstate       Consultant Pleads Guilty to Falsifying
carrier for her role in a consumer fraud scheme
involving illicit double brokering of motor carrier
                                                      Driver’s Logs
loads.                                                In U.S. District Court, Greensboro, NC, James
                                                      J. Brylski, owner of motor carrier consulting
The investigation revealed Blyth used the             firm DOT Advisor, Incorporated, in Raleigh,
Internet to access web sites where senders            North Carolina, pleaded guilty to a one count
advertised loads of commercial freight that were      information charging false statements related to
available for transport. Allegedly, she bid on        falsification of driver’s logs.
loads of freight using the names of her various
companies, which are listed as having broker          The information alleges Brylski falsified driver’s
authority with FMCSA, awarded the bids, and           duty status logs for the purpose of concealing
led the sender to believe her trucking business       from FMCSA, the number of hours driven
would deliver the freight for the contracted          as required by Federal Motor Carrier Safety
price. The sender of the freight would send           Regulations. These regulations limit the number
Blyth payment for the agreed upon price.              of hours a truck driver can operate a vehicle
However, after accepting the bid to deliver           in order to prevent motor vehicle accidents
the load of freight, she would immediately            caused by driver fatigue. Accordingly, truck
re-advertise the job on the internet, using a         drivers are required to record their duty status
different company name. She accepted bids             on logs to ensure they do not exceed the
from legitimate trucking companies to ship            maximum number of allowable driving hours,
the freight from the sender to the intended           and that they receive sufficient rest before
destination, never disclosing that she had            driving again. The investigation disclosed
already arranged for the sender to deliver            Brylski falsified such logs as a safety consultant
payment to her.                                       to Mabe Trucking Company, Inc., (Mabe)
                                                      located in Eden, NC, to assist Mabe in passing
This investigation was conducted jointly with         a Federal inspection by FMCSA.
the Decatur County Sheriff’s Office, Decatur,
GA.                                                   This investigation was conducted jointly with
                                                      assistance from FMCSA.
Note: Indictments, informations, and criminal



                                 Semiannual Report to Congress   •   31
March 16, 2012                                       The investigation revealed that Landis also
                                                     participated in a scheme in which DA Landis
Owner of Pennsylvania Trucking Firm
	
                                                     Trucking, Inc., transported adulterated milk not
Pleads Guilty to Criminal Conspiracy                 fit for human consumption to a New Jersey
and False Statement Charges                          cheese manufacturer. On March 12, the U.S.
                                                     Attorney’s Office filed a one count information
On March 16, 2012, Dean Landis, owner                charging the Lebanon Cheese Company and
and operator of D.A. Landis Trucking, Inc., a        owner Joseph Lotito with using milk that tested
Lancaster, PA, company, pleaded guilty in U.S.       positive for unacceptable levels of bacteria
District Court, Philadelphia, PA, to criminal        and antibiotics in the production of consumer
conspiracy and false statement charges               food products. Landis knowingly sold and
relating to the firm’s systematic falsification of   transported the tainted milk to Lebanon Cheese
FMCSA-regulated truck drivers’ daily logbooks.       who in turn, knowingly used the milk in the
Landis admitted that between January 2007            production of cheese products. Landis illicitly
and November 2009 he directed at least 10            sold the milk at a discounted rate and profited
company commercially licensed truck drivers to       nearly $30,000.
prepare and maintain false logbooks.
                                                     This investigation was conducted jointly with
Landis further admitted that he and his              the Food and Drug Administration’s Office of
company routinely disregarded FMCSA                  Criminal Investigation, with assistance from
regulations by allowing, encouraging, and            FMCSA.
causing commercial truck drivers employed
by D.A. Landis Trucking to operate in violation      March 19, 2012
of FMCSA hours of service safety regulations.
Landis instructed employees to prepare two
                                                     New York Man Sentenced on Tax
sets of driver’s logs, one of which was false        Charge in Illegal Vehicle Importation
and intended for FMCSA inspectors to conceal         Scheme
violations of safety regulations. The company
also dispatched drivers on trips that required       Gar Loon Lee, was sentenced in U.S. District
excessive hours of driving time and excessive        Court, Burlington, VT, to 30 months probation,
hours of on-duty time, without allowing the          payment of a $25,000 fine, and payment of
required hours of rest or regulated off-duty time.   taxes and penalties in the amount of $13,879
During the execution of a search warrant of          for failing to report the receipt of significant
the company, Federal agents seized numerous          taxable gross income from the illegal importation
logbooks and documents marked “Not for               of four passenger vehicles from Canada to
DOT.”                                                Vermont in 2009.




                                 Highway and Transit Programs   •   32
Vehicles imported into the United States must       The investigation disclosed that during 2004
comply with NHTSA’s Federal Motor Vehicle           and 2005, Gill submitted applications for
Safety Standards (FMVSS) prior to being offered     motor carrier broker licenses to FMCSA using
for sale and must be imported by or through a       false names, Social Security numbers, and
registered importer recognized by NHTSA. Lee,       driver’s license numbers. Additionally, between
who was neither a registered importer               2002 and 2005, Gill used Internet-based
nor worked through a registered importer,           “loadposting” boards to find freight loads that
purchased four Nissan automobiles in Canada         were available for transport and would offer to
and illegally entered Vermont at various ports      transport the loads for a fixed price. He would
of entry during 2009, using borrowed New York       then re-post the loads on the same or different
dealer plates. Lee failed to declare the vehicles   web sites, acting as a broker, to find another
as imports and did not complete the required        trucking company willing to transport the
importation documents with CBP. None of             freight. In over 100 instances, Gill found trucking
the four vehicles complied with FMVSS or            companies to deliver the freight, allowed them
emissions standards imposed by Environmental        to make the deliveries, then received payment
Protection Agency regulations.                      from the original brokers who believed Gill had
                                                    completed the deliveries himself. Gill refused
This investigation was conducted jointly with       to pay the trucking companies who actually
ICE’s Burlington, VT, office.                       transported the freight, keeping the money for
                                                    himself. In 2006, OIG agents executed a search
March 27, 2012                                      warrant at an interstate broker business and
                                                    interstate motor carrier owned and operated
Sacramento Man Sentenced for                        by Gill. During the search, Gill was arrested
Defrauding Truckers in Motor Carrier                on charges related to his defrauding motor
Broker Scheme                                       carriers, and he was subsequently indicted
                                                    on five counts of wire fraud. In 2007, OIG
Kulwant Singh Gill was sentenced in U.S.            determined that Gill continued his scheme
District Court in Sacramento, CA, for devising a    in the exact same manner, even after having
scheme to defraud unsuspecting motor carriers       been indicted. Additional charges against Gill
who shipped goods across State lines and            were subsequently added in a superseding
were not subsequently paid for transporting the     indictment.
loads. The Court sentenced Gill to 10 years,
8 months in prison, and ordered him to pay          OIG conducted this investigation with FMCSA
$376,765 in restitution to his victims. Gill was    assistance.
also ordered to enter a 500-hour Bureau of
Prisons substance abuse treatment program.
At the conclusion of his prison sentence, Gill
will be placed on probation for 36 months.



                               Semiannual Report to Congress   •   33
March 29, 2012                                      and contract administrators for federally funded
                                                    municipal, county, and State contracts. The
Minnesota Trucking Company Owner
	
                                                    contracts specified employees must be paid
Charged in a Criminal Complaint                     according to the prevailing wage rate in the
                                                    area. Bauerly implemented various schemes to
Gary Bauerly, owner and operator of WATAB
                                                    avoid paying the prevailing wage rate, including
Hauling, was charged in a criminal complaint
                                                    providing false payroll reports to the contractors
by the Hennepin County Attorney’s Office,
                                                    and Government contract administrators.
Minneapolis, MN, with theft by swindle for
willfully circumventing prevailing wage rates.
                                                    This investigation was conducted jointly with
                                                    the Minnesota Department of Transportation
Bauerly allegedly submitted fraudulent
                                                    and the Hennepin County Attorney’s Office.
documents to obtain payments as a
subcontractor and employed a series of
                                                    Note: Indictments, informations, and criminal
schemes to avoid paying prevailing wages
                                                    complaints are only accusations by the
owed to WATAB employees, totaling
                                                    Government. All defendants are presumed
approximately $52,000. Bauerly provided
                                                    innocent unless and until proven guilty.
fraudulent information to general contractors




                                Financial and Information Technology   •   34
                                          In-Focus: Identifying and Correcting
                                                        Vehicle Safety Defects


From 2002 through 2009, NHTSA’s Office of                        who subsequently worked for automakers did
Defects Investigation (ODI) received nearly                      not unduly influence ODI’s decisions. However,
14,000 consumer complaints related to                            we identified opportunities for ODI to enhance
unintended acceleration (UA), about 4 percent                    the effectiveness of its processes for reviewing
of all consumer complaints ODI received and                      complaints and investigating alleged defects.
reviewed. A fatal crash in 2009 involving a
Toyota Motor Company vehicle that accelerated                    ODI identified potential UA-related risks
out of control raised significant concerns                       and followed its established processes in
                                                                                       1
about ODI’s performance, as well as NHTSA’s                      investigating Toyota and monitoring recalls.
compliance with Government ethics rules to                       As Toyota UA-related consumer complaints
better ensure the integrity of ODI decisions.                    increased, ODI initiated six investigations that
                                                                 identified safety defects that led to six recalls,
Based on the evidence we reviewed, we found                      including a recall in 2007 of floor mats that
that ODI employees who had worked in the                         could trap the accelerator pedal.
auto industry and former NHTSA employees




1
Toyota had the second highest, accounting for 17 percent of all UA-related complaints.




                                      Semiannual Report to Congress           •    35
Despite these actions, process improvements                          ODI’s limited information sharing and
are needed to identify and address vehicle                           coordination with foreign countries have further
safety defects. Specifically, ODI needs to:                          reduced opportunities to identify safety defects
                                                                     or recalls in a global automobile industry.
• adequately track and document pre-                                 NHTSA has agreements with Canada, Japan,
  investigation activities, primarily consumer                       and the United Kingdom that include provisions
  complaints;                                                        on sharing safety defect information, but these
                                                                     agreements have yielded limited informal
• establish a systematic process for                                 discussions on defects and recalls. Certain
  determining when to involve third-party or                         best practices of ODI’s foreign counterparts
                                           2                         for conducting vehicle and equipment tests,
  Vehicle Research and Test Center (VRTC)
  assistance;                                                        validating data, and hiring investigators merit
                                                                     ODI’s consideration.
• follow timeliness goals for completing
  investigations;                                                    ODI has begun to implement recommendations
                                                                     that we and others have made to improve
                                                                     its processes for identifying and addressing
• fully implement its redaction policy to ensure
                                                                     potential safety defects. We will continue to
  consumers’ privacy;
                                                                     monitor ODI’s progress in strengthening its
                                                                     processes and its workforce.
• establish a complete and transparent
  record system with documented support
  for decisions that significantly affect its
  investigations; and

• develop a formal training program to ensure
  staff has the necessary skills and expertise.




2
    VRTC is a Federal research facility that conducts research and vehicle testing in support of NHTSA’s mission.




                          In Focus: Identifying and Correcting Vehicle Safety Defects              •    36
      Rail and Maritime Programs and Economic Analysis




Audits                                             Amtrak’s operating loss for fiscal year 2011 was
                                                   $37.6 million (9 percent) greater than its operating
                                                   loss for fiscal year 2010. However, Amtrak
December 21, 2011
                                                   anticipated the greater loss in its fiscal year 2011
Semiannual Report on Amtrak’s                      budget projections, and the actual operating loss
Financial and Operating Performance                that resulted was $104.4 million (18.6 percent)
                                                   less than what the company projected. The
and Savings From Reform                            year-over-year increase in operating loss was
Mandated by the Fiscal Year 2010 Consolidated      due primarily to increased expenditures on
Appropriations Act                                 salaries, wages, and benefits, while the less-
                                                   than-budgeted operating loss was due mostly
Our semiannual report to the House and             to greater-than-expected ticket revenue. Amtrak
Senate Appropriations Committees provides an       had partial success generating new revenue from
assessment of Amtrak’s projected savings from      its fiscal year 2011 improvement initiatives. KPIs
operational reforms and year-to-date financial     show that core expenditures increased as much
performance. The report also includes an update    as core revenue growth on a per-mile basis; the
on Amtrak’s use of Key Performance Indicators      company projects that its improvement initiatives
(KPI) to improve company performance and           will have high upfront costs but long-term
assess progress of improvement initiatives.        benefits.
Despite records in both revenue and ridership,



                              Semiannual Report to Congress   •   37
March 6, 2012                                      25 of its 29 PRIIA responsibilities. However,
                                                   FRA has yet to complete several key PRIIA
Refinements to DOT’s Management
	
                                                   responsibilities, including completing the
of the Highway Trust Fund’s Solvency               National Rail Plan and promulgating grant
Could Improve the Understanding and                rules that could significantly impact efforts to
                                                   improve and expand intercity passenger rail and
Accuracy of Shortfall Projections                  develop High-Speed Intercity Passenger Rail
Requested by the former Ranking Member of          (HSIPR). We made recommendations to assist
the Senate Budget Committee                        FRA in fully implementing PRIIA provisions
                                                   and strengthening intercity passenger rail.
Following the fiscal year 2008 shortfall in the    FRA concurred with our recommendations,
Highway Trust Fund’s (HTF) Highway Account,        and has completed actions to address one
FHWA and FTA instituted procedures to              recommendation and proposed actions to
forecast shortfalls and communicate with           address the other recommendations.
Congress regarding HTF’s balance and possible
shortfalls. FHWA has developed additional          March 28, 2012
procedures that allow it to adjust the amount
and timing of Highway Account outlays to
                                                   FRA Needs To Expand Its Guidance
States if a shortfall appears imminent. While      on High-Speed Rail Project Viability
FHWA’s and FTA’s shortfall projections are         Assessments
reasonable, improvements to their projection
                                                   Self-initiated
methodology could enhance the accuracy
of their shortfall estimates and enable them
                                                   FRA needs to focus on three key areas to
to implement, at the earliest possible date,
                                                   develop sound project viability assessments:
shortfall management and communication
                                                   (1) the elements with the greatest impact
procedures.
                                                   on the components of the analysis (revenue
March 6, 2012                                      forecasts, public benefits valuations, and
                                                   operations and maintenance cost estimates),
FRA Has Made Progress in                           which include current trip tracking, projections
Implementing PRIIA Responsibilities                of future travel, and annual train-miles and
                                                   train-hours operated; (2) the level of analytical
but Challenges for Long-Term HSIPR                 detail required for these components at the
Remain                                             preliminary, intermediate, and final phases in
Mandated by the Passenger Rail Investment and      the development of a HSIPR proposal; and (3)
Improvement Act of 2008 (PRIIA)                    issues central to methodological soundness.
                                                   In addition, FRA’s guidance and requirements
In the first 3 years of PRIIA, the Federal         for HSIPR grant applicants is inadequate to
Railroad Administration (FRA) implemented          ensure all applicants submit sound, comparable


                     Rail and Maritime Programs and Economic Analysis   •   38
project benefit assessments. We made               was sent to the House Transportation and
recommendations to assist FRA in developing        Infrastructure Committee; Senate Commerce,
specific, detailed guidance for preparing HSIPR    Science, and Transportation Committee; and
ridership and revenue forecasts, public benefits   House and Senate Appropriation Committees.
valuations, and operating cost estimates
that reflect the key considerations identified     Overall, we found that Amtrak’s 5-year financial
in this report. FRA fully concurred with our       plan addresses most of the requirements
recommendations and indicated that it will         outlined in PRIIA but lacks some required
produce guidance to vet through stakeholders       information—most notably regarding the
and appropriate technical experts by March         company’s financial stability and past
2013.                                              performance. Our previous assessments also
                                                   found these deficiencies in the plans, but
March 28, 2012                                     according to Amtrak officials, the company is
PRIIA-Mandated Review of Amtrak’s
	                currently addressing them. In accordance with
                                                   the company’s strategic plan, issued in 2011,
Annual Budget and 5-Year Financial                 Amtrak organized the financial plan around new
Plan                                               strategic goals and revised its annual budget
Mandated by the Passenger Rail Investment          for fiscal year 2012 to align with the plan.
and Improvement Act of 2008 (PRIIA)

Our annual report on Amtrak’s 5-year financial
plan for fiscal years 2012 through 2016 and
its revised annual budget for fiscal year 2012




                               Semiannual Report to Congress   •   39
Rail and Maritime Programs and Economic Analysis   •   40
                                Financial and Information Technology



Audits                                              report did not include any reportable internal
                                                    control deficiencies or instances of reportable
                                                    noncompliance with laws and regulations tested.
November 2, 2011
                                                    Complete financial statements will be included
Quality Control Review of the Saint                 in SLSDC’s Annual Report, which will also
Lawrence Seaway Development                         contain a copy of our quality control report and
                                                    Chiampou Travis Besaw & Kershner’s report.
Corporation’s Audited Financial
Statements for Fiscal Years 2011                    November 4, 2011
and 2010                                            Quality Control Review of Controls
Self-initiated                                      Over DOT’s Enterprise Services Center
                                                    Self-initiated
We conducted a quality control review of
the audit of the Saint Lawrence Seaway              DOT’s Enterprise Services Center (ESC)
Development Corporation’s (SLSDC) financial         provides financial management services
statements for fiscal years 2011 and 2010.          to DOT and several Federal agencies, and
Chiampou Travis Besaw & Kershner LLP, under         operates under the direction of DOT’s Chief
contract to SLSDC, issued a clean (unqualified)     Financial Officer. Clifton Gunderson LLP, under
audit opinion on SLSDC’s financial statements.      contract to OIG, examined ESC’s description
Chiampou Travis Besaw & Kershner LLP’s              of its financial management system, and the


                                Semiannual Report to Congress   •    41
suitability and effectiveness of its internal        OIG, issued a clean (unqualified) audit opinion
controls’ design and operation. For the period       on NTSB’s financial statements. Leon Snead
of October 1, 2010, to June 30, 2011, Clifton        & Company, P.C.’s report did not include any
Gunderson found that (1) in all material respects    reportable internal control deficiencies or
ESC’s description of its internal controls           instances of reportable noncompliance with
fairly presents the system that was designed         laws and regulations tested. Complete financial
and implemented throughout the period; (2)           statements will be included in NTSB’s Annual
the internal controls were suitably designed         Report, which will also contain a copy of
to provide reasonable assurance that their           our quality control report and Leon Snead &
objectives would be achieved if the controls         Company, P.C.’s report.
operated effectively throughout the period and
users applied the complementary controls             November 7, 2011
contemplated in ESC’s design of its controls
throughout the period; and (3) the controls
                                                     Actions Needed To Ensure Accurate
tested, which together with the complementary        Executive Order 13520 Reporting
user entities’ controls, if operating effectively,   Self-initiated
were those necessary to provide reasonable
assurance that the control objectives were           Executive Order 13520, “Reducing Improper
achieved, and operated effectively throughout        Payments,” requires each Department to submit
the period. Our quality control review disclosed     a one-time report on its high-priority programs,
no instances in which Clifton Gunderson did not      and quarterly reports on individual high-dollar
comply in all material respects with generally       improper payments. The order also requires
accepted Government auditing standards.              Inspectors General to review their agencies’
                                                     reports and provide recommendations
November 7, 2011                                     to agency heads for improvements to the
Quality Control Review of the National               programs and their internal controls. We
                                                     reported that DOT’s September 2010 report to
Transportation Safety Board’s Audited                OIG did not accurately account for high-dollar
Financial Statements for Fiscal Years                overpayments and recoveries or meet reporting
2011 and 2010                                        requirements for high-priority programs and
Self-initiated                                       high-dollar overpayments. DOT’s quarterly
                                                     report, issued in January 2011, also did not
                                                     meet reporting requirements for high-dollar
We issued an audit report on our quality
                                                     improper payments. Both reports included
control review of the audit of the National
                                                     improper payment amounts that should not
Transportation Safety Board’s (NTSB) financial
                                                     have been reported and understatements
statements for fiscal years 2011 and 2010. Leon
                                                     of payment recoveries. While we recognize
Snead & Company, P.C., under contract to
                                                     DOT’s conservative approach and its efforts



                                 Financial and Information Technology   •   42
to increase transparency, it is incumbent          threats, FISMA requires agencies to develop,
upon DOT to accurately estimate improper           document, and implement agencywide
payments in its programs in order to better        information security programs. FISMA also
evaluate the effectiveness of its improper         requires agency program officials, chief
payment remediation efforts. We made a             information officers, and Inspectors General
recommendation to assist the Department in its     to conduct annual reviews of their agencies’
preparation of quarterly reports on high-dollar    information security programs and report the
improper payments. DOT concurred with our          results to the Office of Management and Budget
recommendation and provided appropriate            (OMB). As part of this review, OMB requires
planned actions and timeframes.                    Inspectors General to use 127 security metrics
                                                   to assess their agency’s performance.
November 14, 2011
                                                   Our annual audit of DOT’s information security
FISMA 2011: Persistent Weaknesses
	                program and practices identified several
in DOT’s Controls Challenge the                    key cyber security improvements that DOT
Protection and Security of Its                     made since our November 15, 2010, FISMA-
                                                   required report. For example, DOT developed
Information Systems                                a comprehensive cyber security policy for the
Required by the Federal Information Security       entire Department, except for the Office of
Management Act of 2002 (FISMA)                     the Secretary, and reported all major security
                                                   incidents to the Department of Homeland
DOT’s operations rely on more than 400             Security. However, the Department has not yet
systems, which represent an annual investment      corrected weaknesses in its information security
of approximately $3 billion—one of the largest     procedures, enterprise-level and system-level
information technology investments among           controls, and management of corrective
Federal civilian agencies. The Department’s        actions. We made five new recommendations
financial systems manage and disburse              to address these vulnerabilities. DOT’s Chief
approximately $90 billion in Federal funds         Information Officer will provide a description,
annually. To protect the information systems       along with milestone dates, of the specific
that support Federal operations from cyber         actions to implement these recommendations.




                               Semiannual Report to Congress   •   43
November 14, 2011                                   Complete financial statements will be included in
                                                    DOT’s Agency Financial Report, which will also
Quality Control Review of the Federal               contain a copy of Clifton Gunderson’s report.
Aviation Administration’s Audited
                                                    December 28, 2011
Financial Statements for Fiscal Years
2011 and 2010                                       DOT Needs To Improve Its Tracking
	
Self-initiated                                      and Monitoring of All Single Audit
                                                    Findings in Order To Effectively
Clifton Gunderson, LLP, under contract to
OIG, issued a clean (unqualified) audit opinion
                                                    Manage Grants
on FAA’s financial statements for fiscal years      Self-initiated
2011 and 2010. Clifton Gunderson’s report
did not include any reportable internal control     To help ensure the proper use of grant awards,
deficiencies or instances of reportable             the Single Audit Act of 1984, as amended,
noncompliance with laws and regulations tested.     requires grantees that expend $500,000 or
Complete financial statements will be included      more in Federal funds in a fiscal year to obtain
in FAA’s Annual Report, which will also contain     an annual single audit, which includes an
a copy of our quality control report and Clifton    audit of financial statements and schedule of
Gunderson’s report.                                 Federal award expenditures, as well as reviews
                                                    of internal controls and compliance with laws
November 15, 2011                                   and regulations. Grantees are required to
                                                    develop corrective action plans to address
Quality Control Review of the                       single audit findings. In turn, the Department
Department of Transportation’s                      and its Operating Administrations (OA) are
Audited Consolidated Financial                      responsible for ensuring that grantees complete
                                                    the necessary actions in a timely manner.
Statements for Fiscal Years 2011 and                We reported that for single audit findings
2010                                                classified as high priority, the five DOT OAs
Self-initiated                                      that we reviewed (FHWA, FTA, FAA, FRA, and
                                                    NHTSA) issued decisions on grantees’ planned
Clifton Gunderson, LLP, under contract to           corrective actions within OMB’s prescribed
OIG, issued a clean (unqualified) audit opinion     deadline. However, for lower priority findings,
on DOT’s financial statements for fiscal years      OAs’ decisions on grantees’ planned corrective
2011 and 2010, but reported three significant       actions were untimely and incomplete. Further,
deficiencies in internal control and seven          the OAs did not ensure that grantees fully
actual or potential instances of reportable         implemented planned corrective actions in a
noncompliance with laws and regulations.            timely manner, including resolution of questioned



                                Financial and Information Technology   •   44
costs. Finally, the OAs did not take sufficient     or reports on MARTA’s internal controls and
actions to identify and address grantees with       compliance were inappropriate or unreliable.
numerous or repeated single audit findings.
We made recommendations to DOT to update            January 30, 2012
its procedures to ensure prompt resolution
of all single audit findings. The Department
                                                    Quality Control Review of New Mexico
concurred with one of our five recommendations,     DOT Fiscal Year 2009 Single Audit
and partially concurred with the other four. We     Self-initiated
consider OST’s planned actions sufficient, but
open pending completion of the planned actions.     During fiscal year ending June 30, 2009, the New
                                                    Mexico Department of Transportation expended
January 4, 2012                                     approximately $351 million from DOT grant
                                                    programs. Meyners & Company, LLC, performed
Quality Control Review of Single Audit              a single audit on New Mexico DOT’s use of DOT
on the Metropolitan Atlanta Rapid                   grants for this period. Major programs tested by
                                                    Meyners & Company included (1) the Highway
Transit Authority                                   Planning and Construction Program, (2) the
Self-initiated                                      Federal Transit Cluster, (3) the Non-urbanized
                                                    Area Formula Program, (4) the Highway Safety
During fiscal year ending June 30, 2010, the        Cluster, and (5) the Minimum Penalties for
Metropolitan Atlanta Rapid Transit Authority        Repeat Offenders for Driving While Intoxicated
(MARTA) expended approximately $131 million         Program. Our initial quality control review
from DOT grant programs. Cherry, Bekaert &          (performed in August 2010) determined the
Holland, LLP, performed a single audit on           work of Meyners & Company to be technically
MARTA’s use of these grants for the period.         deficient. However, we performed a follow-up
The major programs tested by Cherry, Bekaert        review in July 2011 and determined the work
& Holland included the Federal Transit Cluster      of Meyners & Company to be acceptable with
and Clean Fuel Bus Project Grants. Our quality      a deficiency; therefore, it generally met the
control review found Cherry, Bekaert &              requirements of generally accepted Government
Holland’s single audit to be acceptable with        auditing standards; the Single Audit Act of 1984,
deficiencies; therefore, it generally met the       as amended; and OMB Circular A-133. We found
requirements of generally accepted Government       nothing to indicate that Meyners & Company’s
auditing standards; the Single Audit Act of 1984,   opinion on New Mexico DOT’s financial
as amended; and OMB Circular A-133. We              statements or reports on internal controls and
found nothing to indicate that Cherry, Bekaert &    compliance were inappropriate or unreliable.
Holland’s opinion of MARTA’s financial statements




                                Semiannual Report to Congress   •    45
January 31, 2012                                    the State Auditor’s work was technically
                                                    deficient. Our follow-up review (performed in
Office of Inspector General’s Review of
	
                                                    January 2012) determined the audit work was
Fiscal Year 2011 Drug Control Funds                 acceptable with a deficiency, and therefore
and Performance Summary Reporting                   generally met the necessary requirements.
Self-initiated                                      We found nothing to indicate that the State
                                                    Auditor’s report on the Metropolitan Council’s
                                                    internal controls and compliance were
Our review of NHTSA’s fiscal year 2011 Drug
                                                    inappropriate or unreliable.
Control Obligation Summary and Performance
Summary reports found no information that
would reverse NHTSA’s assertions that the           March 15, 2012
reports complied, in all material respects, with
the requirements of the Office of National          DOT’s Improper Payment Reporting
Drug Control Policy Circular, Drug Control          Generally Complies With IPERA
Accounting.                                         Self-initiated

                                                    The Improper Payments Elimination and
March 1, 2010
                                                    Recovery Act (IPERA) requires Federal agencies
Quality Control Review of Single Audit              to eliminate payment errors in their programs.
                                                    In its fiscal year 2011 Annual Financial Report,
on the Metropolitan Council of the                  DOT accurately reported improper payment
Twin Cities Area                                    information and complied with IPERA, with some
Self-initiated                                      exceptions—three of which were significant. First,
                                                    the Department did not report planned or actual
The Minnesota State Auditor on the                  completion dates for corrective actions taken for
Metropolitan Council performed a single             improper payments in FHWA and FAA programs.
audit of the Twin Cities Area’s (Metropolitan       Second, FAA did not achieve its 2011 improper
Council) use of DOT grants for the fiscal year      payment target rate for its Airport Improvement
ending June 30, 2010. During this period, the       Program. Finally, DOT’s reporting on its payment
Metropolitan Council expended approximately         recapture program was incomplete. We made
$129 million from DOT grant programs. The           two recommendations to assist the Department
State Auditor tested the DOT Federal Transit        in its preparation for IPERA reporting, which DOT
Cluster as a major program. Our initial review      generally concurred with.
performed in August 2011 determined that




                                Financial and Information Technology   •   46
                                                Acquisition and Procurement



In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with
other OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting range
of reports related to our aviation, highway and transit, rail and maritime, and information technology
work. Leveraging OIG’s acquisition expertise across all audit groups ensures consistent and thorough
reviews of acquisition matters throughout the Department and with its grantees. This comprehensive
approach to acquisition matters focuses on the strategic significance of promoting effective oversight
of the Department’s acquisitions, contracts, and financial assistance arrangements.



Audits                                               In 2010, FAA awarded its seven SE-2020 base
                                                     contracts to provide up to 10 years of technical
                                                     and professional support services for its
March 23, 2012
                                                     NextGen systems, programs, and functions.
FAA’s Contracting Practices Are                      We assessed whether FAA (1) manages its
                                                     SE-2020 contract costs effectively, and (2)
Insufficient To Effectively Manage Its               uses sound contracting practices to select
Systems Engineering 2020 Contracts                   contractors and oversee their performance.
Requested by the Chairmen of the House               Our findings included that unclear FAA
Committee on Transportation and Infrastructure       Acquisition Management System requirements
and its Aviation Subcommittee                        resulted in unreliable cost baselines and
                                                     overstated contract values, which impedes
                                                     FAA’s ability to manage total contract costs.


                               Semiannual Report to Congress    •   47
These weaknesses are compounded by errors
in FAA’s acquisition databases and in the cost
monitoring spreadsheets that FAA uses to
detect cost overruns. FAA’s practices to select
contractors and oversee their performance are
not sufficient. For example, FAA used limited
past performance evaluations to select SE-2020
contractors and contract oversight employees
were not properly trained or used oversight
plans. FAA concurred or partially concurred with
10 of our 12 recommendations, and recognized
the need to continually seek ways to further
strengthen SE-2020 contract oversight and
program management.




                                Acquisition and Procurement   •   48
                                                         Departmentwide Issues



Audits                                              oversight of hazardous liquid and natural gas
                                                    pipeline safety; (4) ensuring effective oversight
                                                    of ARRA projects and applying related lessons
November 15, 2011
                                                    learned to improve DOT’s infrastructure
Top Management Challenges                           programs; (5) managing NextGen advancement
for Fiscal Year 2012                                while controlling costs; (6) managing DOT
                                                    acquisitions in a more strategic manner to
Self-initiated
                                                    maximize limited resources and achieve better
                                                    mission results; (7) improving the Department’s
The top management challenges facing                cyber security; (8) defining clear goals to guide
the Department in fiscal year 2012 are (1)          FRA in its transformation; and (9) utilizing
enhancing the Department’s oversight of             Department credit programs to leverage limited
highway, bridge, and transit safety; (2) ensuring   Federal transportation infrastructure resources.
effective oversight on key initiatives that can     This report was included in the Department’s
improve aviation safety; (3) ensuring effective     Annual Financial Report, as required by law.




                                Semiannual Report to Congress   •   49
March 29, 2012
Top Management Challenges Facing
the Department of Transportation
Testimony before the House Subcommittee
on Transportation, Housing and Urban
Development, and Related Agencies

The Inspector General focused on short- and
long-term actions that DOT should take to
ensure transportation safety and maximize
investments in transportation by highlighting
three cross-cutting areas: (1) enhancing
aviation, surface, and pipeline safety;
(2) ensuing effective stewardship of the
Department’s resources; and (3) effectively
implementing transportation infrastructure
programs.




                                   Departmentwide Issues   •   50
                                                  Other Accomplishments




OIG’s other accomplishments and contributions are those that extend beyond the legal reporting
requirements of the Inspector General Act.




October 3, 2011                                   needed benefits to airspace users and airline
                                                  passengers. A key theme of the presentation
Presentation on NextGen Challenges                was the need for FAA to articulate clear
The Deputy Assistant Inspector General for        priorities for a wide range of new systems
Aviation and Special Programs spoke at the Air    and how new systems can improve air traffic
Traffic Control Association annual symposium      operations and reduce costs for FAA as well
on the challenges in delivering the promised      as the airlines. The symposium was attended
benefits of FAA’s multi-billion dollar NextGen    by leaders of U.S. and foreign aerospace
initiative in today’s fiscally constrained        companies; airline industry executives;
environment. The Deputy Assistant Inspector       trade associations; and various Government
General highlighted past and ongoing OIG          agencies, including the Department of Defense
work and the critical factors for successfully    and the National Aeronautics and Space
managing NextGen and delivering much              Administration.




                              Semiannual Report to Congress   •   51
October 14, 2011                                    safety. He stated that implementing systems
                                                    and processes that capture accurate and
Presentation on Safeguarding DOT                    complete data is critical for FAA to determine
Against Awards to Improper Parties                  the true magnitude of operational errors, assess
                                                    their potential safety impacts, identify their
The Inspector General spoke at the second           root causes, and develop actions to effectively
annual OIG Suspension and Debarment                 address and mitigate them.
Conference in Crystal City, VA, sponsored by
the Council of Inspectors General on Integrity      November 21, 2011
and Efficiency’s Suspension and Debarment
Working Group in conjunction with the Recovery      Presentation on Amtrak Delays
Act Transparency and Accountability Board.
The Inspector General discussed recent actions      An OIG economist presented a paper on OIG’s
taken by DOT to improve its Suspension and          analysis of the causes of Amtrak delays in a
Debarment Program in response to OIG’s              transportation economics session at the annual
January 2010 audit report, as well as the           Southern Economics Association Conference.
importance of this program to safeguard against     The presentation focused on the data
fraud, waste, and abuse in the Department’s         development and statistical techniques used
procurement and grant programs. The event           to conduct the analysis. In addition, another
was attended by investigators, auditors,            OIG economist served as the discussant for
attorneys, and agency officials.                    a transportation economics paper on travel
                                                    demand forecasting. Economists from all over
November 17, 2011                                   the southeastern United States attended the
                                                    conference.
Roundtable on FAA Operational Errors
The Inspector General participated in an Aviation   January 5, 2012
Safety Roundtable held by the Chairmen of
the House Transportation and Infrastructure         Governmentwide Audit Guide on
Committee and its Aviation Subcommittee. The        Contract Closeout
roundtable was held specifically to gain insight
into the alarming increase in mishaps and close     A Program Director from the Office of Acquisition
calls in the air and airport runways, commonly      and Procurement Audits created a standard
referred to as “operational errors.” FAA’s Senior   audit guide for reviewing the effectiveness
Vice Presidents of Operations and Safety in         of an agency’s contract closeout policies
FAA’s Air Traffic Organization were also invited.   and practices. The guide provides detailed
The Inspector General addressed the significant     guidance for identifying key contract clauses
increase in operational errors over the past year   and assessing compliance, determining whether
and the need for continued oversight to improve     best practices are sufficiently used for efficiently



                                  Other Accomplishments    •   52
closing contracts within required timeframes,
and evaluating practices to ensure funds
remaining on physically completed contracts
are put to better use in a timely manner.
Applications of the guide’s procedures can
help agencies ensure that the Government’s
interests are protected before closing contracts
and ensure that unneeded funds are identified
early and put to use for other needed projects
or paying expenditures on other open contracts.
The guide is posted on the Federal Audit
Executive Council’s Web site at http://www.
ignet.gov/pande/faec/caguideccloseout.pdf.

March 15, 2012

Presentation on Amtrak Delays
An OIG economist presented a paper on
OIG’s analysis of Amtrak delays at the annual
Transportation Research Forum in Tampa, FL.
The conference focused on transportation
economics, and was attended by individuals
from academia, government, and the private
sector.




                               Semiannual Report to Congress   •   53
Other Accomplishments   •   54
                                          Work Planned and In Progress

This section describes OIG’s work planned or in progress for April 1, 2012, through September 30,
2012. The work focuses on the Department’s Strategic Plan and its core missions of transportation
safety and mobility, and responds to requests by Administration officials and Congress. We take
into account the need to support DOT’s most critical programs and to ensure that the Department’s
resources are protected from fraud, waste, and abuse.



AVIATION AND SPECIAL PROGRAMS
IN PROGRESS

FAA’s Controller Facility Training                   DOT and FAA Oversight of Domestic
Program                                              Code-Share Relationships
FAA plans to hire and train nearly 11,000 new        At the request of the former Chairmen of
air traffic controllers through fiscal year 2020     the House Committee on Transportation
to offset impending retirements. Training and        and Infrastructure and its Subcommittee on
certifying these large numbers of newly hired        Aviation, OIG is conducting an audit of DOT
controllers pose significant challenges for FAA.     and FAA oversight of code-share agreements
Over the past 2 years, average training times        between domestic air carrier partners. Our
                                                     audit objectives are to (1) examine DOT’s and
for controllers assigned to terminal facilities
                                                     FAA’s role in reviewing agreements between
increased significantly, primarily due to the
                                                     mainline air carriers and their regional partners,
increased number of new hires who have no
                                                     (2) assess FAA policies and procedures for
prior air traffic experience. In addition, some
                                                     ensuring one level of safety between mainline
facilities have experienced high trainee attrition
                                                     carriers and their regional partners, and (3)
rates. For example, at the New York Terminal         determine whether passengers have adequate
Radar Approach Control, 77 percent of new            information to make informed decisions when
controllers who completed facility training          purchasing airline tickets.
between fiscal years 2008 and 2010 did not
successfully complete controller certification.
Given these challenges, our audit objectives are
                                                     FAA Oversight of ARRA Expenditures
to (1) identify steps FAA has taken to improve       ARRA requires Inspectors General to conduct
the facility training program for air traffic        audits of ARRA-funded projects to ensure
controllers and (2) assess the effectiveness of      the effective and efficient use of ARRA funds.
those steps in improving training times, staffing    Accordingly, OIG is assessing FAA’s oversight
composition, and training completion rates.          of ARRA grants for airports to determine



                                 Semiannual Report to Congress   •   55
whether FAA is preventing improper payments         FAA and Air Carrier Efforts To
and ensuring ARRA funds are used only for
                                                    Enhance Safety in Response to the
authorized purposes.
                                                    Colgan Accident
FAA Oversight of Aircraft Repair Stations           At the request of the Chairman and Ranking
                                                    Member of the House Committee on
At the request of the former Chairman of the        Transportation and Infrastructure, we are
House Transportation and Infrastructure’s           reviewing FAA and industry efforts to enhance
Subcommittee on Aviation, OIG is assessing          safety. Since the fatal crash of Colgan Air
U.S. airlines’ use of aircraft repair stations.     flight 3407 in February 2009, FAA, Congress,
The objectives of our audit are to (1) examine      and air carriers have recognized the need for
changes FAA has made to its repair station          safety initiatives in pilot fatigue, training, and
oversight, (2) assess the effectiveness of these    professionalism. These initiatives, while ongoing,
changes in bolstering FAA’s oversight of both       were not completed during FAA’s Call to Action on
domestic and foreign repair stations, and (3)       Airline Safety and Pilot Training and subsequently
identify challenges to effective oversight that     became requirements under the Airline Safety
FAA still needs to address.                         and FAA Extension Act of 2010. Accordingly, we
                                                    are (1) examining FAA and industry progress in
                                                    implementing elements of the Airline Safety and
FAA’s Terminal Automation                           FAA Extension Act of 2010 and (2) identifying any
Modernization Program                               challenges to completing these actions.

FAA plans to invest about $1 billion through
2018 to modernize terminal automation
                                                    FAA’s Aviation Safety Inspector and
systems that controllers rely on to manage          Analyst Staffing
air traffic near airports. This effort is key to
                                                    The Airline Safety and FAA Extension Act of
replacing aging equipment and achieving
                                                    2010 directed OIG to review staffing levels
FAA’s goals for NextGen. Our audit objectives
                                                    for FAA’s aviation safety inspectors and
are to determine whether FAA’s (1) acquisition      operations research analysts. The 2009
strategy for terminal modernization effectively     Colgan crash raised concerns about the
addresses technological and operational risks       experience and numbers of inspectors and
and (2) terminal modernization efforts are          analysts assigned to oversee air carriers and
compatible with key NextGen programs and            review inspection data. Accordingly, our audit
schedules.                                          objectives are to (1) evaluate FAA’s process
                                                    for assigning inspectors and analysts to each
                                                    Part 121 air carrier, (2) assess the number and
                                                    level of experience of inspectors and analysts
                                                    assigned to each Part 121 air carrier, and



                                Work Planned and In Progress   •   56
(3) evaluate FAA’s use of other surveillance       as flight delays and cancellations—in the
processes to supplement the inspections            aftermath of the September 2001 terrorist
performed by assigned oversight offices.           attacks and economic downturn, the report
                                                   was expanded to incorporate metrics on airline
FAA’s Methodologies for Investigating              finances and airport service levels. Our last
                                                   report (dated May 6, 2009) contained over 25
and Mitigating Risks of Losses of                  metrics organized into such areas as airline
Standard Separations                               financial performance and industry conditions,
                                                   changes in flight service to airports, and flight
At the request of the Chairmen and Ranking         delays and cancellations. Past reports have
Members of the Senate Committee on                 also highlighted one or more significant issues
Commerce, Science, and Transportation and its
                                                   impacting the aviation industry at that time. For
Subcommittee on Aviation Operations, Safety,
                                                   the upcoming report, we anticipate identifying
and Security, as well as the Chairman and
                                                   important changes in the dramatically evolving
Ranking Members of the House Transportation
                                                   airline industry, updating the prior 25 metrics,
and Infrastructure Subcommittee on Aviation,
                                                   as well as adding some new ones dealing with
we are assessing how operational errors are
                                                   various passenger service issues.
categorized and how their risks are mitigated.
Operational errors occur when a controller
fails to ensure required separation between        FAA’s Air Traffic Safety Action
aircraft—a serious threat to aviation safety.      Program (ATSAP)
The number of recorded operational errors has
risen dramatically over the past few years, but    At the request of the Chairmen and Ranking
FAA has not clearly explained the reasons for      Members of the Senate Committee on
this rise. Accordingly, we are evaluating the      Commerce, Science, and Transportation and its
effectiveness of FAA’s policies and processes      Subcommittee on Aviation Operations, Safety,
to (1) collect, measure, evaluate, and report      and Security, as well as the Chairmen and
separation losses, and (2) mitigate the risk of    Ranking Members of the House Transportation
separation losses.                                 and Infrastructure Subcommittee on Aviation,
                                                   we are assessing FAA’s implementation of
                                                   ATSAP and identifying any improvements
Aviation Industry Performance Report               necessary for FAA to maximize program
Since 2000, we have issued the Aviation            benefits. ATSAP is a voluntary safety reporting
Industry Performance Report, a series of           program for employees at all air traffic control
statistics-based reports on the aviation           facilities. The program encourages employees
industry. While the report initially focused       to report safety and operational concerns to
on the airline industry’s performance—such         build awareness of events that may lead to




                               Semiannual Report to Congress   •   57
safety breakdowns so that actions can be taken      audit to (1) assess FAA’s progress in addressing
to reduce risk. Our objective is to assess FAA’s    cost, schedule, and performance risks facing
implementation and oversight of ATSAP.              ADS-B identified in our previous work and
                                                    FAA test reports and (2) evaluate whether the
                                                    ADS-B contract, as modified, is designed and
FAA’s Federal Contract Tower Program                administered effectively to manage costs and
At the request of the Chairman and Ranking          achieve desired outcomes.
Member of the House Committee on
Appropriations, OIG is reviewing FAA’s Contract     Aviation Safety Information Analysis
Tower Program, which employs contractors
to provide air traffic control services at low
                                                    and Sharing (ASIAS) System
activity airports at lower costs than FAA could     The Airline Safety and FAA Extension Act of
otherwise provide. Our objective is to review the   2010 directed OIG to assess the feasibility of
Contract Tower Program to evaluate whether          FAA establishing a comprehensive repository
the program continues to be cost-effective and      containing data from multiple sources that is
have safety benefits and overall value to users.    accessible by aviation safety inspectors and
                                                    analysts. FAA’s ASIAS system contains data
PLANNED                                             from numerous safety databases, including
                                                    the Aviation Safety Action Program and other
Challenges and Risks With Automatic                 voluntary programs. In the past, access to such
                                                    data has been limited. We plan to conduct
Dependent Surveillance-Broadcast                    an audit to determine (1) the status of FAA’s
(ADS-B) Implementation                              efforts to implement ASIAS, (2) how FAA uses
                                                    the system to assist in overseeing air carriers,
At the request of the Chairman and Ranking          and (3) whether aviation safety inspectors and
Members of the House Appropriations                 operational research analysts have access to
Committee’s Subcommittee on Transportation,         ASIAS data.
Housing and Urban Development, and Related
Agencies, we are reviewing FAA’s progress,
challenges, and risks in implementing the           Underlying Causes for Lack
ADS-B program. Congress expressed concern           of Progress With NextGen
that while FAA is making progress with installing
                                                    Implementation
ADS-B ground stations, recent problems with
the En Route Automation Modernization (ERAM)        Since the NextGen effort began in 2005, OIG
program—another key FAA acquisition—clearly         has repeatedly reported on cost and schedule
show that more oversight of FAA’s major capital     risks as well as operational and management
programs is needed. We plan to conduct an           challenges NextGen faces. During recent




                                Work Planned and In Progress   •   58
hearings on NextGen, Congress has indicated         PHMSA’s Oversight and Enforcement
its growing concern with FAA’s lack of
                                                    of the State Pipeline Safety Program
progress. At the request of the Chairman and
Ranking Members of the House Committee              The September 2010 pipeline explosion in San
on Transportation and Infrastructure and its        Bruno, CA—which killed eight and destroyed
Subcommittee on Aviation, we plan to assess         37 homes—as well as other recent accidents
FAA’s (1) progress in making key NextGen            called into question the effectiveness of Federal
decisions, (2) overarching organizational and       and State oversight and enforcement of pipeline
cultural barriers to effectively execute NextGen,   operators’ compliance with federally mandated
and (3) efforts to address the underlying causes    safety requirements. We plan to conduct an
of problems to include a review of FAA’s recent     audit to evaluate PHMSA’s (1) policies and
reorganization.                                     processes for authorizing States to oversee
                                                    and enforce Federal pipeline safety regulations
FAA Policy Regarding Use of                         and (2) program oversight to ensure States
                                                    effectively execute their pipeline safety oversight
Unmanned Aerial Systems (UAS)                       and enforcement responsibilities in accordance
                                                    with State certifications or agreements.
At the request of the Chairmen and Ranking
Members of the Senate Committee on
Commerce, Science, and Transportation and           Air Carrier Flight Delays,
its Subcommittee on Aviation Operations,
                                                    Cancellations, and Associated Causes
Safety, and Security, as well as the Chairmen
and Ranking Members of the House
                                                    The FAA Modernization and Reform Act of
Transportation and Infrastructure Committee
                                                    2012 directed OIG to update its 2000 report on
and its Subcommittee on Aviation, we plan to
                                                    Air Carrier Flight Delays and Cancellations. As
conduct an audit to assess (1) FAA’s progress
                                                    part of this effort, we will assess FAA’s and the
in developing policies and rules for operating
                                                    Bureau of Transportation Statistics’ progress
UAS in domestic airspace, (2) FAA’s plans for
                                                    in addressing our prior report findings and
incorporating UAS into NextGen, and (3) FAA’s
                                                    recommendations. We will also (1) compare
plans and efforts with other Federal agencies
                                                    recent flight delay and cancellation trends with
to mitigate technological and safety risks for
                                                    prior problem periods, (2) examine air carrier
integrating UAS into the U.S. air transportation
                                                    scheduling practices and their relative impact
system.
                                                    in causing flight delays and cancellations, and
                                                    (3) assess FAA’s use of capacity benchmarks
                                                    to help manage air traffic at the Nation’s busiest
                                                    airports.




                                Semiannual Report to Congress   •   59
FAA’s Oversight of Land Transfers                     Program operates efficiently and effectively
                                                      and achieves its safety mission. We plan to
From Surplus Property Airports
                                                      conduct a follow-up review to evaluate PHMSA’s
In 2011, OIG identified $72 million in lost airport   progress in implementing action items identified
revenue from two airports that sold property          in its special permits and approvals action plans.
below fair market value. FAA policy requires
that airport owners and operators transfer            FAA’s Efforts To Streamline Its Process
airport property at fair market value and use
the proceeds for approved airport purposes.           for Implementing New Performance-
Receiving fair market value helps airports            Based Flight Procedures
reduce their dependence on Federal grants. We
plan to assess how FAA (1) tracks and records         In 2009, RTCA Task Force 5—a joint FAA-
land sales from Surplus Property Airports, (2)        industry task force—completed an assessment
ensures that the airport receives fair market         and identified near-term priorities for the 2012
value, and (3) ensures revenues are restricted to     to 2018 timeframe. Key recommendations focus
approved airport purposes that are completed          on developing high-value flight procedures
according to the terms of the release.                that rely on equipment already onboard aircraft
                                                      and resolving longstanding approval and
                                                      certification issues for new flight procedures. In
PHMSA’s Progress in Implementing                      response to the Task Force’s recommendations,
Actions Plans To Improve                              FAA performed a study (the NAV Lean Project)
                                                      that identified 21 needed improvements.
Management and Oversight of
                                                      However, these improvements could take as
the Special Permits and Approvals                     long as 5 years to complete, and new flight
Program                                               procedures are not yet yielding expected
                                                      benefits—raising congressional and industry
Over the past 2 years, OIG’s evaluation of this       concern. At the request of the Chairmen of
program has consistently shown that strong            the House Transportation and Infrastructure
oversight of these authorizations is needed.          Committee and its Subcommittee on Aviation,
OIG recommended several actions that PHMSA            we plan to assess FAA’s progress in (1) providing
needed to take to strengthen its policies,            new high-value performance-based navigation
procedures, and management oversight to               procedures and (2) implementing improvements
ensure the Special Permits and Approvals              recommended by the NAV Lean Project.




                                  Work Planned and In Progress   •   60
HIGHWAY AND TRANSIT PROGRAMS 

IN PROGRESS

FTA Oversight of the Dulles Corridor               FMCSA’s Response to NTSB
Metrorail Project                                  Recommendations on New Entrant
OIG is conducting an audit of FTA’s oversight of
                                                   Safety Assurance Program
Phase 1 of the Dulles Corridor Metrorail Project   OIG is conducting an audit to evaluate FMCSA’s
in the Washington, DC, metropolitan area.          response to NTSB recommendations for ad-
This infrastructure project involves a Federal     dressing weaknesses in Federal oversight of
investment of $900 million through FTA’s New       passenger carriers identified through an inves-
Starts program, including $77.3 million in ARRA    tigation into a 2008 motor coach crash near
funds. Our audit objectives are to determine       Victoria, TX, which killed one passenger and
whether (1) FTA’s oversight of the Metropolitan    injured 47 others. Our audit objectives are to
Washington Airports Authority’s process to         assess FMCSA’s efforts to (1) detect and deter
test the 30-year-old foundations was sufficient    reincarnated motor carriers; (2) revise regula-
to resolve all safety concerns, and (2) FTA’s      tions, implement new rulemakings, or obtain
oversight activities effectively addressed         increased statutory authority to strengthen
significant project schedule, cost, and funding    passenger carrier safety; and (3) develop the
risks.                                             capability to better identify and track motor
                                                   carriers whose vehicles do not comply with
FHWA Oversight of High-Dollar ARRA                 Federal safety requirements.
Highway Projects
                                                   FTA’s Charter Bus Regulation
ARRA provided $27.5 billion to FHWA for
ARRA highway infrastructure investments and        In a report accompanying the Fiscal Year
requires FHWA to ensure that States receiving      2010 appropriations bill for the Department
ARRA funds adhere to all Federal-aid highway       of Transportation, Housing and Urban
program requirements. OIG is conducting an         Development, and Related Agencies, the
audit to determine whether FHWA’s oversight        Senate Committee on Appropriations
of selected high-dollar ARRA projects has          directed OIG to conduct an audit of FTA’s
resulted in project compliance with key            implementation of the charter bus regulation.
Federal-aid highway requirements for cost,         This regulation generally prohibits a transit
quality, and construction schedule.                agency that receives Federal transit grant funds
                                                   from providing charter services, such as shuttle




                               Semiannual Report to Congress   •   61
buses to sporting events, when a private charter        expenditure of Federal grant funds and (2) assess
operator is interested in providing the service.        NHTSA’s actions designed to ensure MOHS’s
Our audit objectives are to (1) evaluate FTA’s          compliance with Federal grant requirements.
implementation of the charter service regulation,
and (2) assess the impact of FTA’s 2008 revisions to
the charter service regulation at selected locations.
                                                        FHWA’s Full Oversight of ARRA
                                                        Projects
FTA’s Regional Oversight of Transit                     OIG is conducting an audit of FHWA’s oversight
Grants                                                  of ARRA projects for which FHWA has retained
                                                        full oversight—that is, project-level approval
OIG is assessing FTA’s regional oversight of            responsibilities for project design, plans,
transit grants to determine whether the efforts         specifications, and estimates and contract
ensure proper stewardship of Federal funds              awards and inspections. These responsibilities
and prevent fraud, waste, and abuse. For each           are typically delegated to States in accordance
selected regional office, we are assessing the          with Stewardship and Oversight Agreements.
use of key oversight tools to identify grantees’        Our audit objectives are to (1) assess FHWA’s
management weaknesses and make funding                  guidance for conducting full oversight during
decisions, and evaluate efforts to ensure that          project construction and (2) determine whether
grantees correct management weaknesses.                 FHWA’s implementation of its full oversight
                                                        guidance results in ARRA projects meeting
                                                        quality and cost requirements.
NHTSA’s Highway Safety Grants to
the State of Mississippi
                                                        FHWA’s Stewardship and Oversight
OIG is conducting an audit of the State of              Agreements
Mississippi, Department of Public Safety, Office
of Highway Safety’s (MOHS) management of                OIG is assessing whether FHWA’s stewardship
highway safety grants. Over the past 4 years,           and oversight agreements clearly define FHWA
NHTSA provided more than $57 million in highway         and State oversight roles and responsibilities,
safety grants to MOHS, and in 2011, NHTSA               and address laws and regulations. Federal law
placed the Mississippi Highway Safety Program           requires FHWA and each State to enter into an
on its “high risk” list. Our audit objectives are       agreement documenting the extent to which the
to (1) determine whether MOHS has sufficient            State assumes FHWA’s responsibilities under
management controls to ensure its compliance            23 U.S.C.
with Federal grant requirements and proper




                                   Work Planned and In Progress   •   62
Cross-Border Trucking                                 PLANNED

OIG is conducting an audit of FMCSA’s North           Dulles Corridor Metrorail Project,
American Free Trade Agreement (NAFTA)                 Phase 2
cross-border trucking pilot program as required
in Section 6901 of the U.S. Troop Readiness,          At the request of Representatives Frank R. Wolf
Veteran’s Care, Katrina Recovery, and Iraq            and Tom Latham, OIG plans to conduct an
Accountability Act, 2007. Based on Section            audit of phase 2 of the Dulles Corridor Metrorail
6901 requirements, we are assessing whether           Project in Northern Virginia. The requesters’
(1) the pilot program consists of an adequate         concerns are that MWAA may not have the
and representative sample of Mexico-domiciled         management or financial capabilities to complete
carriers that are likely to engage in cross–          the entire project on time and on budget, and
border operations beyond the United States            without dramatic toll increases. We plan to (1)
                                                      evaluate FTA’s oversight role and determine
municipalities and commercial zones on the
                                                      whether its approach will address project risks,
United States–Mexico border; (2) Federal and
                                                      and (2) review the phase 2 financial plan and
State monitoring and enforcement activities are
                                                      determine whether anticipated Dulles Toll Road
sufficient to ensure that participants in the pilot
                                                      revenue expectations are based on credible and
program are complying with all applicable laws
                                                      supportable toll road demands and forecasts.
and regulations; and (3) the Department has
established sufficient mechanisms to determine
whether the pilot program is adversely affecting      New York City Major Projects:
motor carrier safety.                                 East Side Access Project
                                                      FTA has committed to investing almost $2.7
Highway Safety Improvement                            billion in Federal funds for the East Side Access
Program (HSIP)                                        project, one of the largest and most complex
                                                      transit projects in the country. Though the
HSIP, a data-driven and performance-based
                                                      project is in construction, estimated costs for
program, aims to significantly reduce traffic
                                                      the East Side Access project have increased
fatalities and serious injuries on public roads.
                                                      from $6.4 billion to $8.1 billion, and the
OIG is assessing whether FHWA (1) provides
                                                      estimated completion date was pushed out
sufficient guidance and assistance to enable
                                                      from December 2013 to April 2018. We plan to
States to effectively implement the data-driven,
                                                      conduct an audit to determine whether FTA has
performance-based approach called for in
                                                      examined and addressed significant factors
HSIP’s enabling legislation, and (2) evaluate
                                                      that have contributed to cost and schedule
HSIP results, which States report to FHWA
                                                      increases, and ensured that the project met
annually, to determine the program’s impact.
                                                      ARRA requirements.




                                 Semiannual Report to Congress   •   63
Federal Lands Highway Indian                        National Transit Database
Reservation Roads Program                           OIG plans to conduct an audit of FTA’s Na-
OIG plans to conduct an audit of the Indian         tional Transit Database (NTD), which Congress
Reservation Roads program within the Office         established to be the Nation’s primary source
of Federal Lands Highway (FLH). The Indian          of information and performance statistics on
Reservation Roads program provides financial        U.S. transit systems. Each year, FTA uses NTD
resources and technical assistance for public       performance data to apportion over $5 billion in
roads that service the needs of Indian lands.       FTA funds to transit agencies in urbanized areas
The Indian Reservation Roads program is             for capital and operating assistance. We plan to
FLH’s largest program, receiving $1.93 billion      evaluate FTA’s oversight of NTD data to ensure
in congressional appropriations from fiscal year    submissions from grant recipients are timely,
2005 through fiscal year 2009, and $310 million     accurate, and complete, and determine whether
in ARRA funds. We plan to assess whether            FTA has opportunities to enhance NTD to
FLH is providing sufficient oversight of the        promote safety and effective use of resources.
Indian Reservation Roads program to ensure
appropriate use of funds and compliance with
Federal requirements.




                                Work Planned and In Progress   •   64
RAIL AND MARITIME PROGRAMS AND ECONOMIC ANALYSIS
	
IN PROGRESS

High-Speed Intercity Passenger                      (3) identifying the challenges FRA faces in
                                                    awarding, obligating, and disbursing funds to
Rail (HSIPR) Program State-Freight
                                                    States.
Railroad Access Agreements
The Passenger Rail Investment and                   MARAD’s Oversight and Coordination
Improvement Act of 2008 (PRIIA) directed            of Port Infrastructure Development
FRA to develop and administer a HSIPR
grant program. Four months after PRIIA’s            Projects
enactment in October 2008, ARRA infused
                                                    Since 2003, MARAD has engaged in
$8 billion into the HSIPR program. One of
                                                    port infrastructure development projects,
the program’s critical implementation risks
                                                    with a role in providing oversight and
derives from the investment of Federal grant
                                                    coordination of projects, acting as a central
funds in private freight railroad infrastructure.
                                                    procurement organization, leveraging Federal
OIG is conducting an audit to (1) evaluate the
                                                    and non-Federal funding resources, and
extent to which FRA’s interim guidance for
                                                    streamlining environmental review and permit
railroad access agreements includes provisions
                                                    processes. OIG’s Office of Rail, Maritime, and
intended to ensure those agreements support
                                                    Economic Analysis is evaluating MARAD’s
HSIPR program goals, and (2) whether final
                                                    oversight and risk management of port
railroad access agreements comply with
                                                    infrastructure development projects. OIG’s
the requirements set forth in FRA’s interim
                                                    Office of Acquisition and Procurement Audits
guidance.
                                                    is evaluating MARAD’s oversight of port
                                                    infrastructure projects’ contract awards and
FRA Progress in Developing a Grants                 administration.
Management Framework
                                                    FRA’s Progress in Implementing the
The new HSIPR program greatly expanded
FRA’s responsibilities. One new responsibility      Rail Safety Improvement Act of 2008
requires the Agency to distribute $10.5 billion
                                                    In response to several fatal rail accidents
in grants to States for passenger rail-related
                                                    between 2002 and 2008, Congress passed the
projects in a short amount of time. We are
                                                    Rail Safety Improvement Act of 2008 (RSIA)—the
(1) evaluating FRA’s grant management
                                                    first authorization of FRA’s safety programs
framework; (2) assessing FRA’s process
                                                    since 1994—which directs FRA to promulgate
for determining its workforce needs; and



                                Semiannual Report to Congress   •   65
new safety regulations. OIG is assessing FRA’s      FRA’s National Environmental
progress in (1) developing and issuing the new
                                                    Protection Act (NEPA) Process
regulations and (2) establishing or modifying
policies and procedures to ensure compliance
                                                    OIG plans to conduct an audit to assess
with the new RSIA-required regulations.
                                                    FRA’s process for reviewing and approving
                                                    NEPA requirements for rail grants. NEPA
PLANNED                                             requires FRA, as a Federal agency, to assess
                                                    the environmental impacts of its proposed
Amtrak Annual Budget and 5-Year                     actions prior to making decisions. Because
                                                    each Federal agency establishes its own NEPA
Plan                                                review process, process inefficiencies and
Pursuant to Section 204 of the Passenger Rail       redundancies are common among projects that
Investment and Improvement Act of 2008, OIG         involve more than one agency, creating growing
will review the annual budget and the 5-year        concerns about potentially significant delays
financial plans prepared by Amtrak to determine     in approvals and the completion of high-speed
whether they meet the requirements of PRIIA         intercity passenger rail funded projects.
and furnish any relevant findings to the House
Committee on Transportation and Infrastructure;     Effects of Limited Air Service Options
the Senate Committee on Commerce, Science,
and Transportation; and the House and Senate
                                                    on Quality of Service
Committees on Appropriations.
                                                    The FAA Modernization and Reform Act of 2012
                                                    directs OIG to assess the effect that limited
Amtrak’s Financial Accounting and                   air carrier service options on routes have on
Reporting System                                    the frequency of delays and cancellations on
                                                    such routes. To meet this requirement, OIG will
As required by Section 203(b) of PRIIA, OIG         conduct an analysis of the relationship between
plans to conduct a review of Amtrak’s new           the presence or degree of competition on
PRIIA-mandated financial accounting and             airline routes and the frequency of delays and
reporting system to determine whether it            cancellations.
accomplishes the purposes for which it was
intended.




                                Work Planned and In Progress   •   66
FINANCIAL AND INFORMATION TECHNOLOGY
	
IN PROGRESS

Quality Control Review of Standards                     DOT’s Information Security Program
for Attestation Engagements                             and Practices for Fiscal Year 2012
(SSAE-16) Review of DOT’s Enterprise                    As mandated by the Federal Information
Services Center                                         Security Management Act of 2002, OIG
                                                        is performing its annual review of DOT’s
OIG is performing a quality control review              information security program and practices to
of the audit performed by an independent                determine their effectiveness..
public accounting firm to determine whether
(1) management’s description of the service
organization’s systems are fairly presented;            The United States Merchant Marine
(2) controls are suitably designed; and                 Academy’s (USMMA) Technical
(3) controls operate effectively during the period of
October 1, 2011, to June 30, 2012.
                                                        Security Controls
                                                        OIG is assessing USMMA’s technical security
Security Protection of Airmen Registry                  controls for its local area network (LAN) and
                                                        Web site. Our audit objectives are to (1) evaluate
Systems                                                 the implementation of USMMA’s LAN and
OIG is assessing FAA’s registry systems for             Web site technical security controls intended
airmen certification, rating, and authorization         to prevent intrusion and protect personally
to determine whether (1) personally identifiable        identifiable information and (2) identify security
information is secure from unauthorized use or          vulnerabilities and weaknesses.
access, (2) information in the registry systems is
sufficient for managing aircraft registrations and
airmen’s records, and (3) registry contingency
planning ensures FAA’s continued ability to
accomplish its mission of aviation safety.




                                   Semiannual Report to Congress   •   67
Implementation of DOT’s Enterprise      Security and Controls Review Over
Architecture for Information Technology FAA’s ERAM Program
Investment                              OIG is performing an Information Security
OIG is performing a review of DOT’s                  Controls audit of FAA’s ERAM Program. ERAM
development and implementation of an                 will replace the 30-year old En Route Host
enterprise architecture to direct future IT system   computer and backup system, as well as more
development efforts. Our audit objectives are        than 800 controller workstations at FAA’s Air
to determine whether DOT (1) has established         Route Traffic Control Centers nationwide.
adequate baseline and target architectures; (2)      ERAM is expected to facilitate reduced aircraft
has effective management practices, policies,        separation and improved flight plan processing
and processes for developing, implementing,          by offering flexible routing options, provide safety
maintaining, and overseeing the program; and         alerts to prevent collisions and congestion, and
(3) is reporting actual results from the program.    enable controllers to better handle unplanned
                                                     events. We are determining the effectiveness of
                                                     ERAM’s information security controls, including
Quality Control Review of DOT’s Fiscal               whether FAA is identifying security risks and
Years 2012 and 2011 Consolidated                     properly mitigating them.

Financial Statements, and FAA’s,
SLSDC’s, and NTSB’s Financial                        DOT’s Purchase Card Program
Statements                                           OIG is performing an audit on the DOT’s
                                                     purchase card program. Issued via the General
OIG is performing a quality control review of        Services Administration’s SmartPay® program,
the audits performed by independent public           these cards offer a convenient and efficient
accounting firms to determine whether the audits     way for Government agencies to purchase a
were performed in accordance with applicable         wide variety of goods and services. In fiscal
auditing standards.                                  year 2010, DOT employees made more than
                                                     $200 million in purchases with purchase cards.
Quality Control Reviews of Single                    Recent OIG investigations have identified internal
                                                     control issues within the program that have
Audits on DOT Grantees                               led to instances of fraud. We are assessing the
OIG is performing a quality control review of        adequacy of controls established to prevent
the audits performed by independent public           and detect inappropriate or unauthorized use of
accounting firms on grant recipients’ use of         DOT-issued purchase cards.
DOT funds.




                                 Work Planned and In Progress    •   68
FTA’s Improper Payment Controls                       PLANNED

The Improper Payments Information Act of              FHWA’s Improper Payment Controls
2002 holds Federal agencies accountable for
preventing and detecting improper payments            The Improper Payments Information Act of
in their programs. More recent legislation has        2002 holds Federal agencies accountable for
implemented consequences for noncompliance            preventing and detecting improper payments
with statutory requirements for the reduction         in their programs. More recent legislation has
and recovery of improper payments. The                implemented consequences for noncompliance
Department has identified FTA’s Formula Grant         with statutory requirements for the reduction
and Capital Investment Grant Programs as              and recovery of improper payments. FHWA
susceptible to significant improper payments;         was allocated $27.5 billion under ARRA.
99 percent of FTA’s ARRA funds were awarded           OIG will perform a review of the controls
through these programs. We are evaluating             implemented by FHWA to prevent and detect
whether FTA has adequate internal controls to         improper payments to ARRA grant recipients.
prevent and detect improper payments to ARRA
grant recipients.
                                                      DOT’s Common Operating
                                                      Environment Assessment (COE)
Union Station Redevelopment
Corporation                                           COE, DOT’s largest non-FAA network, supports
                                                      the Department in fulfilling its missions. It also
At the request of Representatives Nick J.             contains considerable amounts of personally
Rahall II and Eleanor Holmes Norton, OIG will         identifiable information. Accordingly, DOT needs
perform a full Federal audit of the management        to protect COE and the availability, integrity,
and financial viability of the Union Station          and confidentiality of its information. OIG
Redevelopment Corporation (USRC). Our                 will perform a review of COE to (1) determine
objectives will be to (1) conduct a quality control   whether it is secure from compromise and (2)
review of USRC’s latest financial statement           identify other security weaknesses.
audit, if one was conducted, to determine
if the audit was performed in accordance
with applicable standards, and (2) assess
the adequacy of USRC’s oversight of Union
Station’s development. Based on the outcome
of this review, we will assess the need for and
scope of any subsequent financial management
reviews of USRC’s financial activities.




                                 Semiannual Report to Congress   •   69
FAA’s Air Traffic Control System
Command Center (ATCSCC)
ATCSCC systems assist FAA in managing air
traffic flow, resolving inter-air traffic facility
issues, and addressing weather and other
conditions that stress the National Airspace
System. As such, it is critical that FAA protect
these systems and the availability and integrity
of its information. OIG will perform a review to
assess ATCSCC systems’ information security
controls, including whether FAA is identifying
security risks and properly mitigating them.




                                  Work Planned and In Progress   •   70
ACQUISITION AND PROCUREMENT
In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with other
OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting range of reports
related to our aviation, highway and transit, rail and maritime, and information technology work. Leveraging
OIG’s acquisition expertise across all audit groups ensures consistent and thorough reviews of acquisition
matters throughout the Department and with its grantees. This comprehensive approach to acquisition
matters focuses on the strategic significance of promoting effective oversight of the Department’s
acquisitions, contracts, and financial assistance arrangements.

IN PROGRESS
DOT’s Administration of the                              FAA’s ATCOTS contract, an $859-million contract
                                                         intended to provide up to 10 years of controller
Disadvantaged Business Enterprise
                                                         training support and to assist in modernizing the
(DBE) Program                                            training program. In September 2010, we reported
                                                         that the ATCOTS contract faces challenges. Our
Each year, DOT’s DBE program distributes                 audit objectives are to determine whether FAA (1)
over $3 billion to increase the participation            implemented our prior reported recommendations
of socially and economically disadvantaged               to improve program and contract oversight, (2)
firms in State and local contract awards. OIG            established effective performance measures to
is reviewing DOT’s management and oversight              support ATCOTS training goals, and (3) can achieve
of its DBE program. We are assessing DOT                 ATCOTS training goals under the current contract.
and State policies, internal controls, and
program management to determine whether
they are adequate to ensure only eligible firms
                                                         Departmental Review Processes
are certified as DBEs and funds are effectively          for FAA’s High-Risk Major Systems
used to meet the program’s objectives.                   Acquisitions
Update on FAA’s Challenges for the                       FAA’s fiscal year 2012 request for its capital
                                                         investment portfolio exceeds $3.1 billion. DOT’s
Air Traffic Controller Optimum Training 

                                                         Investment Review Board (IRB) and FAA’s
Solution (ATCOTS) Contract                               Joint Resources Council (JRC) are executive
                                                         governance boards responsible for approving
At the request of the Chairman of the Senate
                                                         and overseeing the annual investment of billions
Homeland Security and Governmental Affairs
                                                         of dollars in major systems acquisitions. We are
Committee’s Subcommittee on Contracting
                                                         assessing DOT’s and FAA’s compliance with IRB
Oversight, OIG is conducting a follow-up audit of
                                                         and JRC investment controls and governance


                                  Semiannual Report to Congress     •   71
Office of Acquisition and Procurement Joint Audits in Progress
	
              In Progress                      Partner Office                             Objective
FAA’s Implementation of the En Route    Aviation and Special          Evaluate ERAM’s contract structure and
Automation Modernization (ERAM)         Programs                      administration for managing costs and achieving
System                                                                outcomes
MARAD’s Oversight and Coordination      Rail and Maritime Programs Evaluate MARAD’s oversight of port infrastructure
of Port Infrastructure Development      and Economic Analysis         projects’ contract awards and administration
Projects



PLANNED                                                         FTA Oversight of Grantees’ARRA
                                                                Contract Award and Administration
DOT’s Contract Closeout Processes
                                                                Practices
Effective contract closeout processes protect the
                                                                FTA has awarded 1,072 ARRA-funded grants
Government’s interests, minimize administrative
                                                                that support the construction or renovation of
costs for the Government and the contractor,
                                                                over 850 transit facilities at a total cost of over
and free excess funds for possible use
                                                                $4 billion, the purchase of nearly 12,000 transit
elsewhere. In fiscal year 2010, DOT obligated
                                                                vehicles at a total cost of more than $2 billion,
approximately $5.8 billion on contracts for goods
                                                                and preventative maintenance projects totaling
and services, a significant pool of contracts that
                                                                $700 million. We plan to conduct an audit to
may require careful contract closeout. We plan to
                                                                determine whether FTA’s oversight of transit
determine whether DOT’s Office of the Secretary
                                                                agencies’ ARRA construction and renovation
and DOT’s operating administrations are closing
                                                                grants is sufficient to ensure (1) that grantees’
contracts efficiently and effectively, including de-
                                                                contract award and administration practices
obligating excess funds on completed contracts.
                                                                comply with laws, regulations, policies, and
                                                                procedures and (2) that grantees achieve the
                                                                cost, schedule, and performance goals of their
                                                                ARRA-funded infrastructure investments.




                                       Work Planned and In Progress        •   72
FRA Oversight of Grantees’ ARRA                     DOT’s Implementation and
Contract Award and Administration                   Management of Key Acquisition
Practices for Its HSIPR Program                     Reforms
ARRA designated $8 billion for FRA’s                The Administration’s reform agenda calls for
HSIPR Program. HSIPR represents a major             improving contracting and reducing reliance on
transformation for FRA—moving from a relatively     risky contracts and includes a focus on topics
small agency focused on rail safety to a grant-     such as strategic sourcing, achieving contract
making agency responsible for overseeing the        cost savings, and effectively contracting for
disbursement of billions of dollars. Insufficient   services. The reform calls for greater economy,
ARRA program oversight could expose FRA to          accountability, and transparency in Government
potential fraud and mismanagement. We plan          contracting, heightening the need for DOT to
to conduct an audit to evaluate FRA’s oversight     effectively implement these initiatives. We plan
of State and other grantee level contract award     to determine whether DOT has implemented
and administration practices by (1) determining     internal controls to effectively implement these
what oversight policies FRA has in place and (2)    acquisition reforms.
assessing any mechanisms FRA uses to monitor
grantees’ contracting activities.




                                Semiannual Report to Congress   •   73
Work Planned and In Progress   •   74
DEPARTMENTWIDE
IN PROGRESS

OST’s Transportation Investments                     Management of the Metropolitan
Generating Economic Recovery                         Washington Airports Authority
(TIGER) Grants                                       (MWAA)
OIG is conducting an audit of DOT’s oversight        At the request of Congressmen Frank R. Wolf
of the TIGER discretionary grant program.            and Tom Latham, OIG is (1) determining
ARRA created this $1.5 billion program to fund       whether the policies and processes under
surface transportation infrastructure projects, to   which MWAA operates comply with the terms of
be administered by the Office of the Secretary       the law and the lease between DOT and MWAA
(OST). Our audit objectives are to (1) evaluate      and (2) assessing the sufficiency of MWAA’s
OST’s management of the TIGER program,               policies and processes to ensure accountability
including performance measures for determining       and transparency of its board’s activities.
the economic and transportation-related              OIG’s Office of Acquisition and Procurement
impact of each project, and (2) each operating       Audits is supporting this audit by evaluating
administration’s oversight of its TIGER projects.    MWAA’s process for awarding contracts and its
                                                     compliance with the Metropolitan Washington
                                                     Airports Act of 1986.




                                 Semiannual Report to Congress   •   75
Work Planned and In Progress   •   76
                                         Statistical Performance Data


Summary of Performance
Office of Inspector General
October 1, 2011 – March 31, 2012
(Dollars in Thousands)

Reports Issued                                                     83
Recommendations Issued                                            234
Congressional Testimonies                                              3
Total Financial Recommendations                           $1,420,761
 That Funds Be Better Used                                $1,400,000
 Questioned Costs                                             $20,761
Indictments                                                        86
Convictions                                                        33




                              Semiannual Report to Congress   •   77
Statistical Performance Data   •   78
Audits
Completed OIG Reports
October 1, 2011 – March 31, 2012
(Dollars in Thousands) *


                                Number of      Number of       Questioned   Unsupported     Funds To Be
         Type of Review          Reports    Recommendations      Costs         Costs      Put to Better Use


Internal Audits
Performance Audits                 14             80                $0          $0              $0
Financial Audits                   4              35                $0          $0         $1,400,000
Attestation Engagements            2               2                $0          $0              $0
Other OIG Reports                  1               0                $0          $0              $0
Total Internal Audit Reports       21             117               $0          $0         $1,400,000
Grant Audits
Audits of Grantees under
Single Audit Act                   62             117          $20,761          $0              $0
Total Completed OIG Reports        83             234          $20,761          $0         $1,400,000


*The dollars shown are the amounts reported to management. The actual amounts may change
during final resolution.


Department of Transportation programs and operations are primarily carried out by Department
personnel and recipients of Federal grants. As a result, audits by DOT’s Office of Inspector General
generally fall into three categories: internal audits of departmental programs and operations, audits
of grant recipients, and other OIG reports.




                               Semiannual Report to Congress    •    79
OIG Reports With Recommendations That Questioned Costs
	
October 1, 2011 – March 31, 2012
(Dollars in Thousands)

                                        Number of         Number of            Questioned   Unsupported
                                         Reports       Recommendations           Costs         Costsa


A.		 For which no management                 5                  7                $911           $0
     decision had been made
     by the start of the reporting
     period


B.		 Which were issued during               15                 17               $20,761         $0
     the reporting period


      Totals (A+B)		                        20                 24               $21,672         $0
	


C.		 For which a management                 15		               18               $20,450         $0
     decision was made during
     the reporting period


      (i) dollar value of disallowed        13		               15               $19,848         $0
      costsb


      (ii) dollar value of costs not         4		                4                $721           $0
      disallowedb


D.		 For which no management                 5		                6               $1,222          $0
     decision had been made
     by the end of the reporting
     period

a
    Unsupported costs are also included in the figures shown as questioned costs.
b
    Includes reports and recommendations where costs were both allowed and disallowed.




                                       Statistical Performance Data   •   80
OIG Reports With Recommendations That Funds Be Put To Better Use
	
October 1, 2011 – March 31, 2012
(Dollars in Thousands)

                                       Number of        Number of
                                        Reports      Recommendations          Funds to Be Put To Better Use


A.		 For which no management                2                2                         $161,126
     decision had been made
     by the start of the reporting
     period


B.		 Which were issued during               1                1                        $1,400,000
     the reporting period


      Totals (A+B)		                        3                3                        $1,561,126
	



C.    For which a management                2                2                        $1,560,700
      decision was made during
      the reporting period


      (i)dollar value of                    2                2                        $1,431,657
      recommendations that were
      agreed to by managementa


      ii) dollar value of                   1                1                         $129,043
      recommendations that
      were not agreed to by
      managementa


D.    For which no management               1                1                           $426
      decision had been made
      by the end of the reporting
      period

a
    Includes reports and recommendations where costs were both allowed and disallowed.



                                     Semiannual Report to Congress   •   81
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
	
October 1, 2011 – March 31, 2012

                                                                                Number of
                                                        Number of Reports    Recommendations


A.		 For which no management decision had been                   42                92
	
     made by the start of the reporting period
	


B.		 Which were issued during the reporting period               63               216
	



      Totals: (A+B)		                                            105              308
	


C.		 For which a management decision was made                    73               203
	
     during the reporting perioda
	


D.		 For which no management decision had been                   40               105
	
     made by the end of the reporting perioda
	

a
    Includes reports where management both made and did not make a decision on recommendations.




                                  Statistical Performance Data   •     82

Management Decisions Regarding OIG Recommendations
	
October 1, 2011 – March 31, 2012
(Dollars in Thousands)

                                Number of      Number of        Questioned   Unsupported     Funds To Be
                                 Reports    Recommendations       Costs        Costs a     Put to Better Use
Unresolved as of 10/1/2011         44            101              $911             $0        $161,126


Audits with Findings During        73            234            $20,761            $0       $1,400,000
Current Period


Total to be Resolved              117            335            $21,672            $0       $1,561,126
Management Decisions:
Audits Prior Period b              28             57              $418             $0        $160,700
Audits Current Period b            54            167            $20,032            $0       $1,400,000


Total Resolved                     82            224            $20,450            $0       $1,560,700
Aging of Unresolved Audits: c
Less than 6 months old             25             67              $729             $0            $0
6 months – 1 year                  10             25              $493             $0           $426
1 year – 18 months                 3              8                   $0           $0            $0
18 months – 2 years                1              1                   $0           $0            $0
Over 2 years old                   4              10                  $0           $0            $0


Unresolved as of 03/31/2012        43            111             $1,222            $0           $426
a
  Unsupported costs are also included in the figures shown as questioned costs.
	
b
  Includes reports and recommendations where costs were both allowed and disallowed.
	
c
  Considered unresolved if management decisions have not been made on all report recommendations.
	




                                Semiannual Report to Congress     •    83
Office of Inspector General Reports
October 1, 2011 – March 31, 2012

DEPARTMENTWIDE

Internal Audits: Performance/Attestation – 6 reports

    Report        Date                 Title                         Focus of Report/ Recommendations

FI-2012-004   11/07/2011   Actions Needed To          OIG did not identify any high-dollar overpayments that should
                           Ensure Accurate            have been reported and actual recoveries were understated.
                           Executive Order 13520      OIG made recommendations to assist the Department in
                           Reporting                  its preparation of quarterly reports on high-dollar improper
                                                      payments.
PT-2012-006   11/15/2011   Top Management             As required by law, OIG identified the top challenges facing
                           Challenges for Fiscal      the Department for fiscal year 2012.
                           Year 2012

FI-2012-007   11/14/2011   FISMA 2011: Persistent     Since our last report, DOT has made some improvements
                           Weaknesses in DOT’s        in its cyber security. However, the Department has not yet
                           Controls Challenge the     corrected weaknesses in its information security procedures,
                           Protection and Security    enterprise-level and system-level controls, and management
                           of its Information Sys-    of corrective actions.
                           tems

FI-2012-037   12/28/2011   DOT Needs To Improve       DOT needs to update its procedures to ensure prompt resolu-
                           Its Tracking and           tion of all single audit findings.
                           Monitoring of All Single
                           Audit Findings in Order
                           to Effectively Manage
                           Grants
CR-2012-071   03/06/2012   Refinements to DOT’s       Following the fiscal year 2008 shortfall in the Highway Trust
                           Management of the          Fund’s Highway Account, both FHWA and FTA instituted
                           Highway Trust Fund’s       procedures to forecast shortfalls and communicate with
                           Solvency Could Improve Congress regarding HTF’s balance and possible shortfalls.
                           the Understanding and      While FHWA and FTA shortfall projections are reasonable,
                           Accuracy of Shortfall      improvements to their projection methodology could enhance
                           Projections                the accuracy of their shortfall estimates and enable them to
                                                      implement, at the earliest possible date, shortfall management
                                                      and communication procedures.


                                    Statistical Performance Data        •    84
FI-2012-073   03/15/2012		   DOT’s Improper Payment DOT both accurately reported improper payment information
                             Reporting Generally       in its fiscal year 2011 Annual Financial Report and complied
                             Complies with IPERA       with IPERA, with three exceptions: (1) the Department did
                                                       not report planned or actual completion dates for corrective
                                                       actions taken for improper payments in FHWA and FAA
                                                       programs; (2) FAA did not achieve its 2011 improper payment
                                                       target rate for its Airport Improvement Program; and (3) DOT’s
                                                       reporting on its payment recapture program was incomplete.


Internal Audits: Financial – 1 report

    Report        Date                 Title                         Focus of Report/ Recommendations

QC-2012-009   11/15/2011     Quality Control Review    Unqualified opinion on DOT’s financial statements, but
                             of Audited Consolidated reported three significant deficiencies in internal control and
                             Financial Statements for seven actual or potential instances of reportable noncompli-
                             Fiscal Years 2011 and     ance with laws and regulations.
                             2010                      Put $1.4 billion to better use.




                                    Semiannual Report to Congress         •    85
FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance/Attestation – 5 reports

    Report       Date                   Title                           Focus of Report/ Recommendations

QC-2012-003   11/04/2011   Quality Control Review         Our quality control review disclosed no instances in which
                           of Controls Over DOT’s         Clifton Gunderson, LLP’s report attestation engagement did
                           Enterprise Services Center not comply, in all material respects, with generally accepted
                                                          Government auditing standards.
AV-2012-027   12/20/2011   New Approaches Are             FAA’s oversight of air carriers’ pilot training and proficiency
                           Needed To Strengthen FAA programs lacks the rigor needed to identify and track poor
                           Oversight of Air Carrier       performing pilots and address potential program risks. FAA
                           Training Programs and Pilot needs to improve its oversight and provide further justifica-
                           Performance                    tion regarding their response on the adequacy of inspector
                                                          oversight of check airmen.
AV-2012-039   01/12/2012   Enhanced Oversight of          Enhanced oversight of staffing and training at FAA’s criti-
                           Staffing and Training at       cal facilities is needed to maintain continuity of air traffic
                           FAA’s Critical Facilities Is   operations. As FAA begins deploying NextGen technologies,
                           Needed to Maintain Conti-      critical facilities will require even more training resources for
                           nuity of Operations            both veteran and new controllers.
AV-2012-056   02/10/2012   ARRA Job Data Reporting        While it is clear that ARRA-funded FAA projects have created
                           for FAA Programs—Les-          or sustained jobs, the full extent of this accomplishment is
                           sons Learned for Improving unclear because of errors and inconsistencies in the col-
                           Accuracy and Transparency lection and reporting of job information. We also identified
                           for Future Jobs Reportingt     areas where DOT can clarify aspects of its departmentwide
                                                          job data reports to better meet ARRA’s transparency and
                                                          accountability requirements. These areas for improvement
                                                          that can serve as lessons learned for the ARRA reports still
                                                          remaining and for any future job creation efforts.

ZA-2012-082   03/28/2012   FAA’s Contracting Practices Unclear FAA Acquisition Management System requirements
                           Are Insufficient To Effec-     resulted in unreliable cost baselines and overstated contract
                           tively Manage Its Systems      values, which impedes FAA’s ability to manage total contract
                           Engineering 2020 Contracts costs. In addition, FAA’s practices to select contractors and
                                                          oversee their performance are not sufficient.




                                     Statistical Performance Data         •    86
Internal Audits: Financial – 1 report



    Report         Date                           Title                            Focus of Report/ Recommendations

QC-2012-008   11/14/2011		     Quality Control Review of Audited         Unqualified opinion on financial statements
                               Financial Statements for Fiscal Years
                               2011 and 2010


Grant Audits: Audits of Grantees Under Single Audit Act – 11 reports



    Report       Date                   Title                           Focus of Report/ Recommendations

SA-2012-011   11/23/2011 State of Illinois (also          Findings concerning the use of the American Recovery and
                             listed under Federal         Reinvestment Act funds were identified. OIG recommends FAA
                             Highway Administration) and FHWA improve grantee oversight.
SA-2012-014   11/23/2011     Holmes County, OH            $49,060 questioned
SA-2012-022   12/13/2011     Port of Pasco, WA            A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends FAA
                                                          improve grantee oversight.
SA-2012-031   12/21/2011     The City of Frederick,       Findings concerning the use of the American Recovery and
                             MD                           Reinvestment Act funds were identified. OIG recommends FAA
                                                          improve grantee oversight.
SA-2012-034   12/21/2011 City of Kansas City, MO Findings concerning the use of the American Recovery and
                                                          Reinvestment Act funds were identified. OIG recommends FAA
                                                          improve grantee oversight.
SA-2012-035   12/21/2011     Augusta, GA (also listed Findings concerning the use of the American Recovery and
                             under the Federal Transit Reinvestment Act funds were identified. OIG recommends FAA
                             Administration)              and FTA improve grantee oversight. $81, 724 questioned
SA-2012-062   02/27/2012 City of Caldwell, ID             $59,646 questioned
SA-2012-065   03/01/2012 City of Camden, AR               $20,000 questioned
SA-2012-074   03/22/2012 Antonio B. Won Pat               $50,000 questioned
                             International Airport
                             Authority, Guam
SA-2012-075   03/22/2012 San Francisco Interna-           $513,578 questioned
                             tional Airport, CA
SA-2012-080   03/22/2012 City of Springfield, MO          Findings concerning the use of the American Recovery and
                                                          Reinvestment Act funds were identified. OIG recommends FAA
                                                          improve grantee oversight.
                                     Semiannual Report to Congress             •    87
FEDERAL HIGHWAY ADMINISTRATION

Grant Audits: Audits of Grantee Under Single Audit Act – 16 reports

    Report       Date                    Title                                  Focus of Report/
                                                                               Recommendations
SA-2012-011   11/23/2011 State of Illinois (also listed   Findings concerning the use of the American Recovery and
                           under Federal Aviation         Reinvestment Act funds were identified. OIG recommends
                           Administration)                FAA and FHWA improve grantee oversight.
SA-2012-012   11/23/2011 Pala Band of Mission             Findings concerning the use of the American Recovery and
                           Indians, CA                    Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.
SA-2012-013   11/23/2011 Naknek Native Village            Findings concerning the use of the American Recovery and
                           Council, AK                    Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.
SA-2012-026   12/13/2011 Commonwealth of PA               Findings concerning the use of the American Recovery and
                                                          Reinvestment Act funds were identified. OIG recommends
                                                          FHWA improve grantee oversight.
SA-2012-028   12/21/2011 New Mexico Department of Findings concerning the use of the American Recovery and
                           Transportation (also listed    Reinvestment Act funds were identified. OIG recommends
                           under the Federal Transit      FHWA, FTA, and NHTSA improve grantee oversight.
                           Administration and the
                           National Highway Traffic
                           Safety Administration)
SA-2012-029   12/21/2011 Ogala Sioux Tribe, SD            A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.
SA-2012-030   12/21/2011 State of Utah                    A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.
SA-2012-041   01/18/2012 Pit River Tribe, CA              A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee oversight.
SA-2012-044   01/18/2012 City of Red Bank, TN             A finding concerning the use of the American Recovery and
                                                          Reinvestment Act funds was identified. OIG recommends
                                                          FHWA improve grantee.




                                     Statistical Performance Data        •   88
QC-2012-047   01/30/2012 Quality Control Review of      Meyners & Company rendered an unqualified opinion on
                          Single Audit on the New       DOT’s major programs, but made recommendations to correct
                          Mexico Department of          internal control and compliance deficiencies that directly
                          Transportation (also listed   affect FHWA, FTA, and NHTSA programs.
                          under the Federal Transit
                          Administration and the
                          National Highway Traffic
                          Safety Administration)
SA-2012-052   02/09/2012 City of King Cove, AK          A finding concerning the use of the American Recovery and
                                                        Reinvestment Act funds was identified. OIG recommends
                                                        FHWA improve grantee oversight.
SA-2012-054   02/09/2012 City of Erie, PA               A finding concerning the use of the American Recovery and
                                                        Reinvestment Act funds was identified. OIG recommends
                                                        FHWA improve grantee oversight.
SA-2012-055   02/09/2012 State of New York              Findings concerning the use of the American Recovery and
                                                        Reinvestment Act funds were identified. OIG recommends
                                                        FHWA improve grantee oversight.
SA-2012-066   03/01/2012 New Mexico Department of A finding concerning the use of the American Recovery and
                          Transportation                Reinvestment Act funds was identified. OIG recommends
                                                        FHWA improve grantee oversight.
SA-2012-068   03/01/2012 City of Truth or Conse-        Findings concerning the use of the American Recovery and
                          quences, NM                   Reinvestment Act funds were identified. OIG recommends
                                                        FHWA improve grantee oversight.
SA-2012-070   03/01/2012 City of Patterson, CA          Findings concerning the use of the American Recovery and
                                                        Reinvestment Act funds were identified. OIG recommends
                                                        FHWA improve grantee oversight.




                                 Semiannual Report to Congress           •    89
FEDERAL RAILROAD ADMINISTRATION

Internal Audits: Performance/Attestation – 2 reports

   Report         Date                   Title                                   Focus of Report/
                                                                                Recommendations
CR-2012-072   03/06/2012   FRA Has Made Progress         FRA has implemented 25 of its 29 PRIIA responsibilities.
                           in Implementing PRIIA         However, FRA has yet to complete several key PRIIA
                           Responsibilities but          responsibilities that could significantly impact HSIPR
                           Challenges for Long-Term      development, including completing the National Rail Plan
                           HSIPR Remain                  and promulgating grant rules. Without full implementation
                                                         of all of its key PRIIA responsibilities, FRA faces
                                                         additional challenges in improving and expanding intercity
                                                         passenger rail.
CR-2012-083   03/28/2012   FRA Needs To Expand Its       Three focus areas are key to sound project viability
                           Guidance on High-Speed        assessment: (1) the elements with the greatest impact on
                           Rail Project Viability        the components of the analysis (revenue forecasts, public
                           Assessments                   benefits valuations, and operations and maintenance
                                                         cost estimates) include current trip tracking, projections
                                                         of future travel, and annual train-miles and train-hours
                                                         operated; (2) the level of analytical detail required for
                                                         these components at the preliminary, intermediate, and
                                                         final phases in the development of a HSIPR proposal; and
                                                         (3) issues central to methodological soundness. FRA’s
                                                         guidance and requirements for HSIPR grant applicants
                                                         is inadequate to ensure all applicants submit sound,
                                                         comparable project benefit assessments.
Grant Audits: Audits of Grantee Under Single Audit Act – 1 report


   Report         Date                           Title                               Focus of Report/
                                                                                    Recommendations
SA-2012-045   01/18/2012   Washington Metropolitan Area Transit     Findings concerning the use of the American
                           Authority (also listed under the Federal Recovery and Reinvestment Act funds were
                           Transit Administration)                  identified. OIG recommends FRA and FTA
                                                                    improve grantee oversight




                                  Statistical Performance Data       •     90
FEDERAL TRANSIT ADMINISTRATION

Internal Audits: Performance/Attestation – 1 report

   Report         Date                             Title                             Focus of Report/
                                                                                    Recommendations
MH-2012-048 01/31/2012		     Challenges to Improving Oversight of   FTA needs to identify actions taken or planned
                             Rail Transit Safety and Implementing   to (1) work with the Volpe National Transporta-
                             an Enhanced Federal Role               tion Systems Center to complete FTA’s assess-
                                                                    ment of existing data management activities
                                                                    and safety data needs; (2) consult with stake-
                                                                    holders to identify gaps in the National Transit
                                                                    Database and opportunities, under its current
                                                                    authority, to improve the database’s usefulness
                                                                    to the transit industry; (3) develop an updated
                                                                    performance plan that identifies clear and
                                                                    specific rail safety performance measures that
                                                                    align with the Department’s strategic goals and
                                                                    with FTA’s rail transit safety activities; and (4)
                                                                    assess FTA’s progress in meeting the rail safety
                                                                    performance measures on an annual basis and
                                                                    produce a report summarizing results.


Grant Audits: Audits of Grantees Under Single Audit Act – 35 reports


                                                                                Focus of Report/
   Report        Date                      Title
                                                                               Recommendations
SA-2012-015   11/23/2011 Lorain County, OH                 A finding concerning the use of the American Recovery
                                                           and Reinvestment Act funds was identified. OIG recom-
                                                           mends FTA improve grantee oversight.
SA-2012-016   11/23/2011 City of Danville, Il              A finding concerning the use of the American Recovery
                                                           and Reinvestment Act funds was identified. OIG recom-
                                                           mends FTA improve grantee oversight.
SA-2012-017   11/23/2011 Regional Transit Authority, LA    Improve grantee oversight
SA-2012-018   11/23/2011 Greater Cleveland Regional        $529,981 questioned
                           Transit Authority, OH
SA-2012-019   11/23/2011 Metropolitan Transportation       Improve grantee oversight
                           Authority, NY



                                   Semiannual Report to Congress       •    91
SA-2012-020   12/13/2011 Commuter Rail Division of the       $9,956,691 questioned
	
                           Regional Transportation Author-
                           ity and the Northeast Illinois
                           Regional Commuter Railroad
                           Corporation (METRA)
SA-2012-021   12/13/2011 Prairie Band Potawatomi             Findings concerning the use of the American Recovery
                           Nation, KS                        and Reinvestment Act funds were identified. OIG recom-
                                                             mends FTA improve grantee oversight.
SA-2012-023   12/13/2011 Miami County, OH                    A finding concerning the use of the American Recovery
                                                             and Reinvestment Act funds was identified. OIG recom-
                                                             mends FTA improve grantee oversight.
SA-2012-024    12/13/2011 City of Eau Claire, WI             A finding concerning the use of the American Recovery
                                                             and Reinvestment Act funds was identified. OIG recom-
                                                             mends FTA improve grantee oversight.
SA-2012-025   12/13/2011 City of Kingston, NY                Findings concerning the use of the American Recovery
                                                             and Reinvestment Act funds were identified. OIG recom-
                                                             mends FTA improve grantee oversight.
SA-2012-028   12/21/2011 New Mexico Department of            Findings concerning the use of the American Recovery
                           Transportation (also listed       and Reinvestment Act funds were identified. OIG
                           under the Federal Highway         recommends FHWA, FTA, and NHTSA improve grantee
                           Administration and the National oversight.
                           Highway Traffic Safety Adminis-
                           tration)
SA-2012-032   12/21/2011 Central Midlands Regional           A finding concerning the use of the American Recovery
                           Transit Authority, SC             and Reinvestment Act funds was identified. OIG recom-
                                                             mends FTA improve grantee oversight.
SA-2012-033   12/21/2011 City of Winston-Salem, NC           $26,500 questioned
SA-2012-035   12/21/2011 Augusta, GA (also listed under      Findings concerning the use of the American Recovery
                           the Federal Aviation Administra- and Reinvestment Act funds were identified. OIG recom-
                           tion)                             mends FAA and FTA improve grantee oversight. $81, 724
                                                             questioned
QC-2012-038   01/04/2012 Quality Control Review of           Cherry, Bekaert & Holland, LLP, rendered an unqualified
                           Single Audit on the Metropolitan opinion on DOT’s two major programs and did not
                           Atlanta Rapid Transit Authority   identify any internal control or compliance deficiencies
                           (MARTA)                           that directly affected DOT programs.
SA-2012-042   01/18/2012 Omnitrans, CA                       Findings concerning the use of the American Recovery
                                                             and Reinvestment Act funds were identified. OIG recom-
                                                             mends FTA improve grantee oversight.


                                      Statistical Performance Data        •   92
SA-2012-043   01/18/2012 Suburban Mobility Authority for A finding concerning the use of the American Recovery
                          Regional Transportation, MI       and Reinvestment Act funds was identified. OIG recom-
                                                            mends FTA improve grantee oversight.
SA-2012-045   01/18/2012 Washington Metropolitan Area       Findings concerning the use of the American Recovery
                          Transit Authority (also listed    and Reinvestment Act funds were identified. OIG recom-
                          under the Federal Railroad        mends FRA and FTA improve grantee oversight.
                          Administration)
SA-2012-046   01/18/2012 Massachusetts Bay Transporta- A finding concerning the use of the American Recovery
                          tion Authority                    and Reinvestment Act funds was identified. OIG recom-
                                                            mends FTA improve grantee oversight.
QC-2012-047   01/30/2012 Quality Control Review of          Meyners & Company, LLC, rendered an unqualified
                          Single Audit on the New Mexico opinion on DOT’s major programs but made recom-
                          Department of Transportation      mendations to correct internal control and compliance
                          (also listed under the Federal    deficiencies that directly affect FHWA, FTA, and NHTSA
                          Highway Administration and the programs.
                          National Highway Traffic Safety
                          Administration)
SA-2012-050   02/09/2012 City of Battle Creek, MI           Findings concerning the use of the American Recovery
                                                            and Reinvestment Act funds were identified. OIG recom-
                                                            mends FTA improve grantee oversight.
SA-2012-051   02/09/2012 Orange County Transportation       A finding concerning the use of the American Recovery
                          Authority, CA                     and Reinvestment Act funds was identified. OIG recom-
                                                            mends FTA improve grantee oversight.
SA-2012-053   02/09/2012 Cheyenne and Arapaho Tribes,       A finding concerning the use of the American Recovery
                          OK                                and Reinvestment Act funds was identified. OIG recom-
                                                            mends FTA improve grantee oversight.
SA-2012-057   02/27/2012 King County, WA                    $3,170,485 questioned

SA-2012-058   02/27/2012 Montachusett Regional Transit      A finding concerning the use of the American Recovery
                          Authority, MA                     and Reinvestment Act funds was identified. OIG recom-
                                                            mends FTA improve grantee oversight.
SA-2012-059   02/27/2012 City of Columbia, MO               $22,803 questioned

SA-2012-060   02/27/2012 Omaha – Council Bluffs Metro-      $27,600 questioned
                          politan Area Planning Agency,
                          NE
SA-2012-061   02/27/2012 Spartanburg County, SC             A finding concerning the use of the American Recovery
                                                            and Reinvestment Act funds was identified. OIG recom-
                                                            mends FTA improve grantee oversight.


                                  Semiannual Report to Congress         •   93
QC-2012-063   03/01/2012 Quality Control Review of        The State Auditor rendered an unqualified opinion
                          Single Audit on the Metropolitan on DOT’s Federal Transit Cluster but made a recom-
                          Council of the Twin Cities Area, mendation to correct an internal control and compliance
                          MN                              deficiency that directly affects am FTA program.
SA-2012-064   03/01/2012 Southeastern Regional Transit    $4,716,219 questioned
                          Authority, MA
SA-2012-067   03/01/2012 Central Contra Costa Transit     A finding concerning the use of the American Recovery
                          Authority, CA                   and Reinvestment Act funds was identified. OIG recom-
                                                          mends FTA improve grantee oversight.
SA-2012-069   03/01/2012 Valley Regional Transit, ID      A finding concerning the use of the American Recovery
                                                          and Reinvestment Act funds was identified. OIG recom-
                                                          mends FTA improve grantee oversight.
SA-2012-076   03/22/2012 City of Beaumont, TX             Findings concerning the use of the American Recovery
                                                          and Reinvestment Act funds were identified. OIG recom-
                                                          mends FTA improve grantee oversight.
SA-2012-077   03/22/2012 City of Beckley, WV              $1,411,031 questioned

SA-2012-079   03/22/2012 VIA Metropolitan Transit, TX     Findings concerning the use of the American Recovery
                                                          and Reinvestment Act funds were identified. OIG recom-
                                                          mends FTA improve grantee oversight.




                                    Statistical Performance Data     •    94
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation – 2 reports

    Report        Date                 Title                                 Focus of Report/
                                                                            Recommendations
MH-2012-001 10/06/2011     Process Improvements Are     NHTSA followed its established procedures in
                           Needed for Identifying and   investigating unintended acceleration issues that affected
                           Addressing Vehicle Safety    multiple vehicle manufacturers. However, ODI needs to
                           Defects                      enhance its processes and increase coordination with
                                                        foreign countries in the global automobile industry.
FI-2012-049   01/31/2012   Inspector General’s          No information came to our attention that would reverse
                           Review of Fiscal Year 2011   management’s assertions that the reports complied, in
                           Drug Control Funds and       all material respects, with the requirements of the Office
                           Performance Summary          of National Drug Control Policy Circular, Drug Control
                           Reporting                    Accounting.




Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports


    Report        Date                 Title                                 Focus of Report/
                                                                            Recommendations
SA-2012-028   12/21/2011   New Mexico Department        Findings concerning the use of the American Recovery
                           of Transportation (also      and Reinvestment Act funds were identified. OIG
                           listed under the Federal     recommends FHWA, FTA, and NHTSA improve grantee
                           Highway Administration       oversight.
                           and the Federal Transit
                           Administration)
QC-2012-047   01/30/2012   Quality Control Review       Meyners & Company, LLC, rendered an unqualified opinion
                           of Single Audit on the       on DOT’s major programs but made recommendations to
                           New Mexico Department        correct internal control and compliance deficiencies that
                           of Transportation (also      directly affect FHWA, FTA, and NHTSA programs.
                           listed under the Federal
                           Highway Administration
                           and the Federal Transit
                           Administration)




                                Semiannual Report to Congress         •   95
NATIONAL TRANSPORTATION SAFETY BOARD

Internal Audits: Financial – 1 report

    Report        Date                  Title                                    Focus of Report/
                                                                                Recommendations
QC-2012-005   11/7/2011		   Quality Control Review of      Unqualified opinion on financial statements
                            Audited Financial Statements
                            for Fiscal Years 2011 and
                            2010




OFFICE OF THE SECRETARY OF TRANSPORTATION

Grant Audits: Audits of Grantee Under Single Audit Act – 4 reports

    Report        Date                  Title                                    Focus of Report/
                                                                                Recommendations
QC-2012-010   11/16/2011    State of New Jersey            KPMG LLP rendered an unqualified opinion as it relates
                                                           to DOT’s major program, the Highway Planning and
                                                           Construction Cluster. The work was acceptable, and
                                                           therefore, met the necessary requirements.
QC-2012-036   12/22/2011    State of Maryland              OIG issued a quality control report on a single audit
                                                           performed by SB & Company, LLC, and determined
                                                           the work to be technically deficient and the audit docu-
                                                           mentation contained quality deficiencies that affect the
                                                           reliability of the audit results in several areas and require
                                                           corrective action.
SA-2012-078   03/22/2012    City and Borough of Juneau, Findings concerning the use of the American Recovery
                            AK                             and Reinvestment Act funds were identified. OIG recom-
                                                           mends OST improve grantee oversight.
SA-2012-081   03/22/2012    Regional Transportation        $145,602 questioned
                            Commission of Southern
                            Nevada




                                   Statistical Performance Data       •    96
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation – 1 report

    Report        Date                        Title                                 Focus of Report/
                                                                                   Recommendations
AV-2012-040   01/12/2012     PHMSA's Inadequate Management           PHMSA’s oversight is lacking, which has re-
                             and Oversight of Hazardous Materials    sulted in misused grant funds due to improper
                             Emergency Preparedness Grants           payments and erroneously advanced funds.
                             Limited the Program's Effectiveness     PHMSA developed a comprehensive action
                                                                     plan in March 2011 to address deficiencies.


SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Financial – 1 report

    Report        Date                        Title                                 Focus of Report/
                                                                                   Recommendations
QC-2012-002   11/02/2011		   Quality Control Review of Audited       Unqualified opinion on financial statements
                             Financial Statements for Fiscal Years
                             2011 and 2010




                                  Semiannual Report to Congress         •   97
Unresolved Recommendations Over 6 Months Old
	
Cited in Semiannual Report for April 1, 2008 - September 30, 2008
	

                                 Title                                  Report Number   Final Issue Date
Review of FAA's Safety Oversight of Airlines and Use of Regulatory      AV-2008-057       06/30/2008
Partnership Programs


Cited in Semiannual Report for October 1, 2008 - March 31, 2009
	

                                 Title                                  Report Number   Final Issue Date
FAA's Process for Reporting and Investigating Operational Errors         AV-2009-045      03/24/2009
	


Cited in Semiannual Report for April 1, 2009 - September 30, 2009
	

                                 Title                                  Report Number   Final Issue Date
Air Traffic Control: Potential Fatigue Factors                          AV-2009-065       06/29/2009
	


Cited in Semiannual Report for October 1, 2009 - March 31, 2010
	

                                 Title                                  Report Number   Final Issue Date
FAA's Oversight of American Airlines' Maintenance Programs              AV-2010-042       02/16/2010
	



Cited in Semiannual Report for April 1, 2010 - September 30, 2010
	

                                 Title                                  Report Number   Final Issue Date
Information Security and Privacy Controls Over the Airmen Medical        FI-2010-069      06/18/2010
Support Systems




                                         Statistical Performance Data   •   98
Cited in Semiannual Report for October 1, 2010 - March 31, 2011
	

                                  Title                                   Report Number   Final Issue Date
FAA Did Not Ensure Revenue was Maximized at Denver Interna-               AV-2011-057       02/28/2011
tional Airport
New York Flight Delays Have Three Main Causes, but More Work Is           AV-2011-007       10/28/2010
Needed To Understand Their Nationwide Effect
FAA Faces Significant Risks in Implementing the Automatic Depen-          AV-2011-002       10/12/2010
dent Surveillance–Broadcast Program and Realizing Benefits


Cited in Semiannual Report for April 1, 2011 - September 30, 2011
	

                                  Title                                   Report Number   Final Issue Date
More Rigorous Oversight is Needed to Ensure Venice Municipal               AV-2011-180      09/29/2011
Airport Land Sales and Leases are Used Appropriately
FAA Policies and Plans are Insufficient to Ensure an Adequate and         ZA-2011-148       08/03/2011
Effective Acquisition Workforce
City of Inglewood, California                                             SA-2011-141       07/14/2011
Puerto Rico Highways and Transportation Authority, San Juan, PR           SA-2011-144       07/14/2011
FAA Needs To Strengthen Its Risk Assessment and Oversight Ap-             AV-2011-136       06/29/2011
proach for Organization Designation Authorization and Risk-Based
Resource Targeting Programs
FAA's Approach To SWIM Has Led To Cost And Schedule Uncer-                AV-2011-131       06/15/2011
tainty And No Clear Path For Achieving NextGen Goals
State of Tennessee                                                        SA-2011-124       06/13/2011
FAA Must Strengthen Its Cost and Price Analysis Processes to              ZA-2011-089       05/19/2011
Prevent Overpaying for Noncompetitive Contracts
State of Texas                                                            SA-2011-078       04/28/2011
Quality Control Review on the Vulnerability Assessment of FAA’s           QC-2011-074       04/15/2011
Operational Air Traffic Control System




                                          Semiannual Report to Congress    •   99
Statistical Performance Data   •   100
Investigations
Statistical Outcomes
October 1, 2011 — March 31, 2012

                                 Financial Impact
Fines (and Special Assessments)                                    $1,636,543
Restitution                                                       $10,720,877
Recoveries                                                         $6,667,054
Total                                                             $19,024,473


Investigative Activities
Current Investigations                                                      413
Investigations Opened                                                        84
Investigations Closed                                                        73


Judicial Referrals
Referred for Criminal Prosecution                                           124
Accepted for Criminal Prosecution                                            85
Declined for Criminal Prosecution                                            66
Referred for Civil Prosecution                                               36
Accepted for Civil Prosecution                                                9
Declined for Civil Prosecution                                                5


Judicial and Administrative Actions
Indictments                                                                  86
Convictions                                                                  33
Years Incarceration                                                          71
Years Supervised Release                                                    54.5
Years Probation                                                              71
Hours Community Service                                                     340
Business Debarment                                                            7


                                  Semiannual Report to Congress   •   101
Business Suspension                                                         6
Business Suspension Pending Debarment                                       2
Individual Debarment                                                        8
Individual Suspension                                                       3
Individual Suspension Pending Debarment                                     4


Cert/License/Permit Revoked/Terminated                                      2
Corrective Action Taken                                                     1
Substantiated—Enforcement Action Taken                                      1
Price Adjustment                                                            1
Reduction in Federal Funding                                                1


Employee: Resigned/Retired During Investigation                             3
Employee: Suspension                                                        1


OIG Hotline Contacts
Email                                                                    1,932
Fax                                                                        17
Letters                                                                   236
Web                                                                       140
Telephone                                                                 387
Walk Ins                                                                    2
Total                                                                    2,714




                                Statistical Performance Data   •   102
Profile of All Pending Investigations by Case Type, as of March 31, 2012
	
                                                          Types of Cases

                     Number of      Aviation            Motor Transportation   Grant    Procurement Workforce Employee
                   Investigations    Safety    Hazmat   Carrier   Safety       Fraud       Fraud    Protection Integrity Othera
FAA                     107           64         4        0          0          19           3          0         15       2
FHWA                    135            0         0        0          0         130           0          0          2       3
FMCSA                   65             0         5        27         0          0            0         27          6       0
FRA                      3             0         0        0          0          3            0          0          0       0
FTA                     36             0         0        0          0          36           0          0          0       0

MARAD                   11             0         0        0          0          2            5          1          3       0
NHTSA                   18             0         0        0          8          8            1          0          1       0
OIG                      2             0         0        0          0          0            0          0          0       2
OST                      4             0         0        0          1          0            1          1          1       0
PHMSA                   24             0         23       0          0          0            0          0          1       0
RITA                     6             0         0        0          0          0            1          0          5       0
STB                      1             0         0        0          0          0            0          0          0       1
         b
SLSDC                    1             0         0        0          0          0            0          0          1       0
Totals                  413           64         32       27         9         198           11        29         35       8
Percent of Total       100%          15%        8%       7%         2%         48%           3%        7%         8%      2%

a
    Includes computer intrusion cases.
b
    Saint Lawrence Seaway Development Corporation


Within the Office of Investigations, Special Investigations staff investigate and report on whistleblower
disclosures of violations of law, rule, or regulation; gross mismanagement; gross waste of funds; abuses of
authority; and/or substantial and specific dangers to public health or safety, which the U.S. Office of Special
Counsel (OSC) referred to the Secretary of Transportation. OIG’s reports of investigation, along with any
necessary agency corrective actions, are transmitted by the Secretary to OSC. Upon receipt, OSC reviews
the OIG’s findings and the agency’s corrective actions to determine whether they are reasonable and meet
statutory requirements. Our current inventory of OSC whistleblower disclosure complaints consists of five
investigations, which are included in the above chart. All five of those investigations are in the area of Aviation
Safety.




                                        Semiannual Report to Congress           •      103
Statistical Performance Data   •   104
                                                   Mission and Organization

The Office of Inspector General for the Department of Transportation was created by Congress
through the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:

 •		 To conduct or supervise objective audits and investigations of the Department’s programs and
     operations;
 •		 To promote economy, effectiveness, and efficiency within the Department;
 •		 To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •		 To review existing and proposed laws or regulations affecting the Department and make 

     recommendations about them; 

 •		 To keep the Secretary of Transportation and Congress fully informed about problems in 

     departmental programs and operations. 


The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.


OIG’s audits and investigations offices and three support offices work together to fulfill its mission:


 •	 The	Office	of	the	Principal	Assistant	Inspector	General	for	Auditing	and	Evaluation
    supervises and conducts all audit activities related to DOT programs and operations through
    its five suboffices, which are divided according to specific DOT program areas: Aviation and
    Special Programs; Highway and Transit; Rail, Maritime, and Economic Analysis; Financial
    and Information Technology; and Acquisition and Procurement. Audit staff are located in
    headquarters and field offices across the country.

 •	 The	Office	of	the	Principal	Assistant	Inspector	General	for	Investigations supervises and
    conducts OIG investigative activities related to DOT programs and operations through its
    headquarters and seven major regional offices. The headquarters office conducts nationwide
    special investigations and analyses as well as manages the OIG Hotline Complaint Center and
    activities generated by complaints.

 •	 The	Office	of	the	Assistant	Inspector	General	for	Legal,	Legislative,	and	External	Affairs
    provides a full-range of professional legal services and advice, facilitates communications with
    Congress, and manages public and external affairs.




                                Semiannual Report to Congress     •   105
•	 The	Office	of	the	Assistant	Inspector	General	for	Administration is divided into four
   suboffices: the Office of Procurement and Administrative Services, the Office of Budget
   and Financial Management, the Office of Human Resources, and the Office of Information
   Technology Management.

•	 The	Office	of	Quality	Assurance	Reviews	and	Internal	Affairs, under the direction of the
   Deputy Inspector General, ensures that internal operations and functions are performed
   objectively and in an efficient and effective manner.




                               Mission and Organization   •   106
                                                        Inspector General




                                                             Deputy
                                                        Inspector General




                       Quality Assurance
                      Reviews and Internal                                                  Chief of Staff
                             Affairs




                                             Principal Assistant            Assistant
Principal Assistant                                                                                      Assistant
                                             Inspector General          Inspector General
Inspector General                                                                                   Inspector General
                                              for Auditing and        for Legal, Legislative,
for Investigations                                                                                  for Administration
                                                 Evaluation            and External Affairs




                                                                        Assistant               Assistant
                           Assistant              Assistant                                                          Assistant
 Deputy Assistant                                                  Inspector General       Inspector General
                      Inspector General      Inspector General                                                  Inspector General
Inspector General                                                  for Rail, Maritime,      for Financial and
                       for Aviation and       for Highway and                                                     for Acquisition
for Investigations                                                   and Economic              Information
                      Special Programs             Transit                                                      and Procurement
                                                                        Analysis               Technology




                       Deputy Assistant       Deputy Assistant
                      Inspector General      Inspector General
                       for Aviation and       for Highway and
                      Special Programs             Transit




                                          Semiannual Report to Congress         •    107
Semiannual Report to Congress   •   108
                                                             Contacts


Inspector General
Calvin L. Scovel III ……………………………………………………………… (202) 366-1959
Deputy Inspector General
Ann Calvaresi Barr ……………………………………………………………… (202) 366-6767
Principal Assistant Inspector General for Investigations
Timothy Barry …………………………………………………………………… (202) 366-1967
Principal Assistant Inspector General for Auditing and Evaluation
Lou Dixon………………………………………………………………………… (202) 366-1427
Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach …………………………………………………………… (202) 366-8751
Assistant Inspector General for Administration
Susan Dailey …………………………………………………………………… (202) 366-1748
Chief of Staff
Madeline Chulumovich ………………………………………………………… (202) 366-6767
Deputy Assistant Inspector General for Investigations
Robert Westbrooks …………………………………………………………… (202) 366-1972
Assistant Inspector General for Aviation and Special Program Audits
Jeffrey Guzzetti ………………………………………………………………… (202) 366-0500
Deputy Assistant Inspector General for Aviation and Special Program Audits
Matt Hampton …………………………………………………………………… (202) 366-1987
Assistant Inspector General for Highway and Transit Audits
Joe Comé ……………………………………………………………………… (202) 366-5630
Deputy Assistant Inspector General for Highway and Transit Audits
Thomas Yatsco ………………………………………………………………… (202) 366-5630
Assistant Inspector General for Rail, Maritime, and Economic Analysis
Mitchell Behm …………………………………………………………………… (202) 366-9970
Assistant Inspector General for Financial and Information Technology Audits
Louis King ……………………………………………………………………… (202) 366-1407
Assistant Inspector General for Acquisition and Procurement Audits
Mary Kay Langan-Feirson……………………………………………………… (202) 366-5225




                   Semiannual Report to Congress   •   109
            Notes





Semiannual Report to Congress   •   110

            Notes





Semiannual Report to Congress   •   111

            Notes





Semiannual Report to Congress   •   112

U.S. Department of tranSportation

        office of inSpector General

       1200 new JerSey avenUe, Se

          waShinGton, Dc 20590





hotline to report fraUD, waSte, anD abUSe:

              phone: 800-424-9071


           email: hotline@oiG.Dot.Gov


       oiG webSite: http://www.oiG.Dot.Gov

